<html>
<title> - ACHIEVING THE PROMISE OF. A DIVERSE STEM WORKFORCE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                        ACHIEVING THE PROMISE OF
                        A DIVERSE STEM WORKFORCE

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 9, 2019

                               __________

                           Serial No. 116-17

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


       Available via the World Wide Web: http://science.house.gov
       
       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-256PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0f7f604f6c7a7c7b676a637f216c606221">[email&#160;protected]</a>              

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                        
                        
                        C  O  N  T  E  N  T  S

                              May 9, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     9
    Written statement............................................    10

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    10
    Written statement............................................    12

                               Witnesses:

Dr. Mae Jemison, Principal, 100 Year Starship
    Oral Statement...............................................    14
    Written Statement............................................    16

Dr. Shirley Malcom, Senior Advisor and Director of SEA Change, 
  American Association for the Advancement of Science
    Oral Statement...............................................    31
    Written Statement............................................    33

Dr. Lorelle Espinosa, Vice President for Research, American 
  Council on Education
    Oral Statement...............................................    44
    Written Statement............................................    46

Dr. James L. Moore III, Vice Provost for Diversity and Inclusion 
  and Chief Diversity Officer, Ohio State University
    Oral Statement...............................................    57
    Written Statement............................................    59

Ms. Barbara Whye, Chief Diversity and Inclusion Officer, Vice 
  President of Human Resources, Intel
    Oral Statement...............................................    68
    Written Statement............................................    70

Discussion.......................................................    98

             Appendix I: Answers to Post-Hearing Questions

Dr. Mae Jemison, Principal, 100 Year Starship....................   128

Dr. Shirley Malcom, Senior Advisor and Director of SEA Change, 
  American Association for the Advancement of Science............   136

Dr. Lorelle Espinosa, Vice President for Research, American 
  Council on Education...........................................   147

Dr. James L. Moore III, Vice Provost for Diversity and Inclusion 
  and Chief Diversity Officer, Ohio State University.............   155

Ms. Barbara Whye, Chief Diversity and Inclusion Officer, Vice 
  President of Human Resources, Intel............................   170

            Appendix II: Additional Material for the Record

Policy recommendations submitted by Representative Eddie Bernice 
  Johnson, Chairwoman, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   176

Letter submitted by Representative Haley Stevens, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   180

 
                        ACHIEVING THE PROMISE OF.
                        A DIVERSE STEM WORKFORCE

                              ----------                              


                         THURSDAY, MAY 9, 2019

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 10 a.m., in room 
2318, Rayburn House Office Building, Hon. Eddie Bernice Johnson 
[Chairwoman of the Committee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Johnson. The hearing will come to order. Without 
objection, the Chair is authorized to declare recess at any 
time.
    Let me welcome all of you to today's hearing, and I'm eager 
to hear from today's distinguished panel of witnesses, each of 
whom is a leader in overcoming obstacles to bring more people 
into STEM (science, technology, engineering, and mathematics) 
studies and careers. So I thank you for the work that you do 
and for being with us today.
    There is no denying the fact that our success as a Nation 
is closely tied to our capacity to build and sustain a highly 
skilled workforce, one that is equipped to take on the pressing 
challenges of the 21st century and to maintain our leadership 
in the global economy.
    Right now, we are facing grave challenges on many fronts. 
We are battling an opioid crisis and seeking cures for diseases 
like cancer. We are losing lives every day to gun violence and 
suicide. We are rooting out terrorists and fighting back 
against attempts to hack our democracy. We are racing to find 
sustainable sources of energy and working to mitigate the 
destructive effects of climate change.
    Meanwhile, our economic competitiveness is threatened as 
competitors like China invest heavily in science and make 
advances in critical technologies like quantum computing and 
artificial intelligence.
    To solve these problems, we need a cadre of trained 
scientists and engineers pushing the boundaries of what we know 
and what we can achieve. We need computer scientists and 
economists, biologists and mathematicians, engineers, chemists, 
and social scientists. So far, we have gotten by with a STEM 
(science, technology, engineering, and mathematics) workforce 
that does not come close to representing the diversity of our 
Nation. However, if we continue to leave behind so much of our 
Nation's brainpower, we cannot succeed.
    The Census Bureau predicts that by 2045, over half of all 
Americans will be non-white. Over half of all children under 18 
will be non-white by 2020. As the rest of the country becomes 
more diverse, the STEM workforce has been slow to respond. In 
addition, I have watched with dismay for decades as women have 
also made too few gains in the STEM workforce. Discrimination, 
harassment, bias, and cultural and institutional barriers are 
preventing many of our brightest minds from realizing their 
greatest potential.
    Today's discussion is long overdue. The last time the 
Science Committee held a hearing focused on the issue of 
broadening participation in STEM was in March 2010. Dr. Malcom 
can confirm that because she was here testifying about the 
challenges facing women, minorities, and persons with 
disabilities at all levels of education and career development.
    I'm sorry to say that in the years since this Committee 
last addressed this issue, progress has been very slow. Some 
fields have seen no gains at all. In 2010, women earned 20 
percent of physics bachelor's degrees; today, they earn 19 
percent. The share of engineering degrees earned by black men 
is the same today as it was in 2010, just 3 percent. Hispanic 
women are still earning less than 2 percent of bachelor's 
degrees in computer science.
    We have a lot of work to do. As Chairwoman of the Science 
Committee I am determined to do what I can to move the needle. 
I was very glad to be joined by my good friend and Ranking 
Member, Mr. Lucas, in introducing H.R. 2528, the STEM 
Opportunities Act of 2019, earlier this week. This bill 
supports policy reforms and research and data collection to 
understand and lower barriers faced by women and minority 
researchers in academia and Federal laboratories.
    The way I see it, we have two possible futures: One in 
which we embrace the changing face of our Nation, and one in 
which our leadership continues to erode. The choice is an easy 
one, but the work required to get us there is not.
    I look forward to hearing the recommendations and insight 
from this wise panel on how we get there.
    [The prepared statement of Chairwoman Johnson follows:]

    Good morning and thank you, Chairman Lamb, for holding this 
timely hearing on two of our most valuable renewable energy 
resources, solar energy and wind energy.
    Over the past ten years, costs of both wind and solar 
energy have decreased dramatically, making them a vital part of 
the energy mix of the U.S. According to a recent report from 
Austin-based analysis firm TXP, solar and wind energy saved 
Texans $5.7 billion in electricity costs from 2010 to 2017, 
compared to what they would have paid if these renewable energy 
sources were not part of the energy portfolio.
    I'm proud to say that Texas now leads the U.S. in installed 
wind energy capacity, with over 24 gigawatts of wind energy. 
That's enough energy to power over 7 million homes. The wind 
energy industry also brings tens of thousands of jobs to the 
state, including jobs at several manufacturing facilities that 
support the wind industry by making products like blades, 
towers, and turbine housings.
    All that being said, we still have significant investments 
we need to make to continue to innovate on these technologies, 
further bringing down their costs and making these technologies 
even more beneficial for Americans.
    In the wind industry, for example, we are exploring new 
technologies like offshore wind, which has significant 
potential for leveraging untapped energy resources near our 
coastal communities, and needs important R&D investments to 
help bring down costs. In the solar industry, we are continuing 
to explore new types of solar cells made of advanced materials 
with record-setting efficiencies, at affordable prices.
    We really can make investments that are both good for the 
environment, and for the economy. That's why I am looking 
forward to hearing from the distinguished witnesses assembled 
here today to learn about how we can support innovation in the 
solar and wind industries, ensuring that these important energy 
resources can play an even larger role in our clean energy 
future.
    With that, I yield back.

    Chairwoman Johnson. Before I recognize Mr. Lucas for this 
opening statement, I ask for the Business Roundtable principles 
of ``Investing in People and a STEM Workforce'' and principles 
on ``Pursuing Inclusive Innovation'' be placed in the record. 
Without objection, so ordered.
    Chairwoman Johnson. The Chair now recognizes Mr. Lucas for 
an opening statement.
    Mr. Lucas. Thank you, Chairwoman Johnson, for holding this 
hearing today to discuss how we can achieve the promise of a 
more diverse STEM workforce in the United States. This 
Committee has a long bipartisan history of supporting STEM 
education for all, and I look forward to continuing that today.
    When women and minorities face cultural and institutional 
barriers to access and advancement in STEM careers, our 
Nation's technological competitiveness suffers. The only way 
we'll achieve our potential is by utilizing America's most 
valuable resource: Our people. That means developing a diverse 
STEM-capable workforce from every education level and from 
every background.
    STEM employment in the U.S. continues to grow faster than 
any other sector, and we are struggling to meet that demand. In 
order to meet it, the development of talent from all groups is 
essential. More graduates with STEM degrees means more advanced 
technologies and a more robust economy. But it's not just about 
the economy. STEM graduates have the potential to develop 
technologies that could save thousands of lives, jumpstart a 
new industry, or even discover new worlds.
    Women and the underrepresented minorities constitute a 
substantial proportion of the U.S. population. However, our 
STEM workforce fails to reflect this diversity. While women 
make up half of the U.S. workforce, they comprise less than 30 
percent of the STEM workforce. Similarly, underrepresented 
racial and ethnic groups make up only 11 percent of the STEM 
workforce.
    This week, I joined Chairwoman Johnson in cosponsoring the 
STEM Opportunities Act of 2019 to help address this disparity. 
This bill requires more comprehensive data collection on 
students, researchers, and faculty receiving Federal science 
grants. This data will help us identify and reduce the barriers 
that prevent underrepresented groups from entering and 
advancing in STEM. It will also help us measure the success of 
Federal STEM programs.
    As many of the Members of this Committee know, I am a proud 
graduate of a land-grant institution, the OSU, as we say, at 
Oklahoma State University, not to be confused with Dr. Moore's 
institution, the other OSU. The land-grant mission is to serve 
students of all backgrounds and influence people's lives beyond 
the boundaries of the classroom in service to the community.
    In my home district, I have seen this mission brought to 
life at both OSU and at Langston University, which is a 
historically black college and a land-grant institution. 
Minority-serving institutions like Langston are successfully 
making strides in increasing the number of minority students 
graduating with STEM degrees.
    It is important that we also increase STEM opportunities 
for American Indian and Alaska Native students, who are also 
unfortunately overlooked in this discussion. The STEM 
Opportunities Act of 2019  will bolster the NSF's Tribal 
Colleges and Universities Program by providing grants to 
enhance computer science education at these institutions. 
Access to computer science resources and the development of 
computing skills is critical for underrepresented students in 
both rural and urban communities.
    I'd like to thank our witnesses for being here. This entire 
panel not only brings a wealth of leadership and expertise in 
STEM education and workforce development, but they also provide 
inspiration to students of all backgrounds who are pursuing 
STEM careers. I look forward to hearing more from each of you 
about how we can support, encourage, and develop the next 
generation of STEM students.
    Last, I again want to thank Chairwoman Johnson for her 
leadership on this important issue. I know it's a subject near 
and dear to her heart, and I look forward to working with her 
on the STEM Opportunities Act and additional STEM legislation 
focused on rural students in the coming year.
    Thank you, witnesses, for being here, and I yield back the 
balance of my time, Madam Chair.
    [The prepared statement of Mr. Lucas follows:]

    Thank you, Chairwoman Johnson for holding this hearing 
today to discuss how we can achieve the promise of a more 
diverse STEM workforce in the United States.
    This Committee has a long bi-partisan history of supporting 
STEM education for all and I look forward to continuing that 
today.
    When women and minorities face cultural and institutional 
barriers to access and advancement in STEM careers, our 
nation's technological competitiveness suffers. The only way 
we'll achieve our potential is by utilizing America's most 
valuable resource: Our people. That means developing a diverse 
STEM-capable workforce from every education level and from 
every background.
    STEM employment in the U.S. continues to grow faster than 
any other sector and we are struggling to meet that demand.
    In order to meet it, the development of talent from all 
groups is essential. More graduates with STEM degrees means 
more advanced technologies and a more robust economy.
    But it is not just about the economy. STEM graduates have 
the potential to develop technologies that could save thousands 
of lives, jump-start a new industry, or even discover new 
worlds.
    Women and underrepresented minorities constitute a 
substantial proportion of the U.S. population; however our STEM 
workforce fails to reflect this diversity. While women make up 
half of the U.S. workforce, they comprise less than 30 percent 
of the STEM workforce. Similarly, underrepresented racial and 
ethnic groups make up only 11 percent of the STEM workforce.
    This week I joined Chairwoman Johnson in co-sponsoring the 
``STEM Opportunities Act of 2019'' to help address this 
disparity.
    This bill requires more comprehensive data collection on 
the students, researchers, and faculty receiving federal 
science grants. This data will help us identify and reduce the 
barriers that prevent underrepresented groups from entering and 
advancing in STEM. It will also help us measure the success of 
federal STEM programs.
    As many of the Members of this Committee know, I am a proud 
graduate of a land-grant institution - The OSU, Oklahoma State 
University. Not to be confused with Dr. Moore's institution, 
the other OSU. The land-grant mission is to serve students of 
all backgrounds, and influence people's lives beyond the 
boundaries of the classroom in service to the community.
    In my home district, I have seen this mission brought to 
life at both OSU and Langston University, which is a 
historically black college and a land-grant institution. 
Minority-serving institutions like Langston are successfully 
making strides in increasing the number of minority students 
graduating with STEM degrees.
    It is important that we also increase STEM opportunities 
for American Indian and Alaska Native students, who are often 
overlooked in this discussion. The ``STEM Opportunities Act of 
2019'' will bolster the NSF's Tribal Colleges and Universities 
Program (TCUP) by providing grants to enhance computer science 
education at these institutions.
    Access to computer science resources and the development of 
computing skills is critical for underrepresented students in 
both rural and urban communities.
    I'd like to thank our witnesses for being here. This entire 
panel not only brings a wealth of leadership and expertise in 
STEM education and workforce development, but they also provide 
inspiration to students of all backgrounds who are pursuing 
STEM careers. I look forward to hearing more from each of you 
about how we can support, encourage and develop the next 
generation of STEM students.
    Lastly, I want to again thank Chairwomen Johnson for her 
leadership on this important issue. I know it is a subject near 
and dear to her heart, and I look forward to working with her 
on the STEM Opportunities Act and additional STEM legislation 
focused on rural students in the coming year.
    Thank you witnesses for being here and I yield back the 
balance of my time.

    Chairwoman Johnson. Thank you, Mr. Lucas.
    Are there other Members who wish to submit additional 
opening statements to the record?
    At this time, I'd like to introduce our witnesses. Our 
first witness is Dr. Mae Jemison. Dr. Jemison leads 100 Year 
Starship, a global initiative seed funded through a competitive 
grant from DARPA (Defense Advanced Research Projects Agency) to 
ensure capabilities for human travel to another star within the 
next 100 years while transforming life on Earth. Dr. Jemison 
served 6 years as a NASA astronaut and was the first woman of 
color in the world to go into space. She is also Chair of the 
National Academies' study on ``Promising Practices for 
Addressing the Underrepresentation of Women in Science, 
Engineering, and Medicine.'' I welcome Dr. Jemison.
    Our next witness is Dr. Shirley Malcom. Dr. Malcom is a 
Senior Advisor and Director of SEA (STEM Equality Achievement) 
Change at the American Association for the Advancement of 
Science (AAAS). She works to support research and practice to 
improve the quality and increase access to education and 
careers in STEM fields. She served on the National Science 
Board, on President Clinton's Committee of Advisors on Science 
and Technology. Dr. Malcom also serves as Co-Chair of the 
Gender Advisory Board of the U.N. Commission on Science and 
Technology for Development and Gender Insight.
    After Dr. Malcom is Dr. Lorelle Espinosa. Dr. Espinosa is 
the Vice President for Research at the American Council on 
Education (ACE). She is responsible for developing and managing 
the organization's thought leadership portfolio and for 
ensuring a strong evidence base across ACE's programs and 
services. Prior to ACE, she held senior roles at the 
Institution of Higher Education Policy, IHEP, Associates. Dr. 
Espinosa is Co-Chair of the National Academies Study Committee, 
``Closing the Equity Gap: Revitalizing STEM Education and 
Workforce Readiness Programs in the Nation's Minority-Serving 
Institutions.''
    Our fourth witness, Dr. James Moore. Dr. Moore is Vice 
Provost for Diversity and Inclusion and Chief Diversity Officer 
of The Ohio State University. He's also the Distinguished 
Professor of Urban Education in the College of Education and 
Human Ecology, Inaugural Executive Director of the Todd Anthony 
Bell National Resource Center on the African-American Male. 
From 2015 to 2017, Dr. Moore served as Program Director for 
Broadening Participation in Engineering at the National Science 
Foundation. His research focuses on school counseling, gifted 
urban multicultural higher education, and STEM education.
    And finally, Dr. Barbara Whye. Ms. Whye is Intel's Chief 
Diversity Inclusion Officer and Chief Human Resources Officer 
for Technology, Systems Architecture, and Client Group. She 
also leads Intel's Diversity and Technology Initiative to reach 
full representation of women and underrepresented minorities in 
Intel's workforce. She has led the investment strategy for 
Intel's global STEM education portfolio with a focus on girls 
and other underrepresented populations. She joined Intel more 
than 20 years ago as an engineer.
    As our witnesses should know, you will have 5 minutes for 
your spoken testimony. Your written testimony will be included 
in the record for the hearing. And so when you--when all of you 
have completed your spoken testimony, we will begin the round 
of questions. Each Member will have 5 minutes to question the 
panel.
    So now we will start with Dr. Jemison.

                  TESTIMONY OF DR. MAE JEMISON,

                  PRINCIPAL, 100 YEAR STARSHIP

    Dr. Jemison. Thank you for inviting me here today.
    And I want to start off by talking about 100 Year Starship, 
which is about trying to make sure we have the capabilities for 
human interstellar travel within 100 years that was seed-funded 
by DARPA. And the reason why we're doing that is because I 
believe that pursuing an extraordinary tomorrow creates a 
better world today. It's by pushing ourselves today that we 
have the ability to incorporate all of this incredible 
technology that we're looking at.
    I am an individual who has been exposed to the most 
advanced technologies and bountiful economic resources and at 
the same time a woeful pittance of human compassion. I am an 
individual who has lived with people who have meager resources 
and who've persevered in conditions that would try us all. They 
relied on technologies that have been around for thousands of 
years but they would share what they have with a stranger.
    This is where I'm coming from because over the course of my 
career and training as a doctor, as an engineer, I have 
attended and taught in schools and programs and universities 
which have been classified at different times as the best and 
the worst in our Nation, Cambodian refugee camps, Chicago 
public schools, Los Angeles Unified School District, Sierra 
Leone, Dartmouth, Cornell, Stanford, and it's from that 
perspective that I bring my comments.
    When I left NASA, the first thing I did was start an 
international science camp called The Earth We Share. Because 
my mother had been a schoolteacher for over 25 years in Chicago 
public schools. I recognized how important it was to do active 
work around science literacy, that is the ability to read an 
article in the newspaper about a subject, whether it be the 
environment or health, and be able to understand it. And we 
work with kids around the world.
    It is important that we have greater representation 
because, right now, STEM fields--science, technology, 
engineering, and mathematics--are slashing a path to the 
future, right? And that future is not necessarily one that we 
can be assured is going to be beneficial. But the scientists, 
the engineers, and those who fund and support them get to do a 
couple of things. They get to choose the problems to be worked 
on and researched. They get to choose the methodologies with 
which that problem will be approached. They get to choose to 
keep data sets or to throw them out as irrelevant or flawed. 
The scientists and engineers and those who fund and support 
them also have an opportunity to decide the priority with which 
problems are addressed. They get an opportunity to decide and 
evaluate whether a solution was effective or not.
    So when you think about that, it requires that we have full 
representation. It's not a nicety; it's a necessity because 
we're losing so much of that perspective that we have to bear.
    And when we look at what was really a difficult situation, 
women and people of color in this country have contributed over 
the years in countless ways despite being left out. So if you 
look from Rosalind Franklin, whether you look at the women who 
coded for NASA and did all the kinds of work in mathematics, we 
know that they've done an incredible job. We see every day that 
women have done an incredible job. We see every day from Dr. 
Daniel Hale Williams and you can go on and on. African 
Americans have contributed; people of color contributed. So 
what we have to do is to make sure that we use all the talent.
    I'm really excited about this bill. I want to throw in a 
couple things. What child doesn't deserve an excellent teacher? 
This really starts with education. With me today is Dr. Peggy 
Brookins, who is the head of the National Board of Professional 
Teaching Standards because we need to have education and 
standards. I've been excited to work with Bayer Corporation 
over the years. Solutions exist where we've been able to change 
the curriculum so that we do hands-on science education, which 
is the most effective way to do it. And the ASSET program has 
lifted not only science scores but reading and mathematics 
scores even more. The Earth We Share, which I talked about, 
brought and trained teachers from around the world.
    And then finally, if I look at what can I offer for the 
bill, it ranges from making sure we think about skilled 
technicians and labor who really make up most of the tech 
workforce, to making sure that we hold organizations 
accountable.
    [The prepared statement of Dr. Jemison follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you.
    Dr. Malcom.

                TESTIMONY OF DR. SHIRLEY MALCOM,

           SENIOR ADVISOR AND DIRECTOR OF SEA CHANGE,

                  AMERICAN ASSOCIATION FOR THE

                     ADVANCEMENT OF SCIENCE

    Dr. Malcom. Chairwoman Johnson, Ranking Member Lucas, and 
Members of the Committee, thank you for the opportunity to 
testify. I'm Shirley Malcom, Senior Advisor and Director of SEA 
Change at the American Association for the Advancement of 
Science, the largest general scientific society in the United 
States and publisher of the Science family of journals. Our 
mission is simple: To advance science, engineering, and 
innovation throughout the world for the benefit of all people.
    I have spent my entire career working to address concerns 
around equity in STEM. I do this partly because of my own 
pathway from the Jim Crow South to years as the only in my 
class, my major, in my lab group, in my faculty, in my 
committees, on boards. I was drawn to science at the launch of 
Sputnik because of the compelling vision and opportunities, 
even for a little girl from Birmingham for understanding and 
making a difference in the world, for earning a living and 
making a life.
    There are many more people out there from all backgrounds 
and experiences who are drawn to STEM and who need to see a 
pathway to turn interest into outcomes. STEM needs these people 
for the energy, dynamism, and diverse perspectives they bring. 
The U.S. research and education cannot be excellent unless 
they're inclusive. Diversity improves the inputs and the 
outcomes. The vibrancy and strength of the U.S. economy and the 
health, security, and quality of life of our citizens are all 
intertwined with the health of the scientific enterprise and 
are products of the investment that this country has made in 
STEM research and education. Our Nation has supported invention 
and innovation across diverse fields and partnered with the 
private sector producing the most powerful engine for economic 
growth in the world.
    But that is not guaranteed. At the core of the economy are 
people, not just the scientists and the engineers and the 
mathematicians in our colleges and universities and industries, 
national labs and biomedical facilities but also the STEM 
teachers, technicians, managers, financiers, patent attorneys, 
and others whose collective efforts, grounded in science, fuel 
the innovation economy. STEM knowledge and skills are not just 
requirements for those of us in STEM but for all throughout the 
workforce and across our society, from farmers utilizing 
weather data and robotics to manage crops to those who care for 
us when we are sick using high-tech diagnostic tools.
    We can only get to this point by expanding the pool of 
talent, tapping into the vast well of women and minorities and 
persons with disabilities who are currently underrepresented in 
STEM. We know that these groups don't participate in STEM at 
levels that are reflected in either the population or in higher 
education, and there are losses at each successive level.
    This isn't just a reflection of interest or the impact of 
personal choices. Choice is not what it seems. Choices aren't 
always informed and may be driven by lack of opportunity or 
stereotyping. Minority students who come from high-needs K-12 
schools may not have opportunities to participate in programs 
or classes that would enable them to explore their interest in 
STEM. Poor early-stage preparation and uninspired teaching 
compounded by low expectations can make it difficult to move 
forward. At later stages the absence of role models, 
institutional and classroom climate, a culture of weeding out, 
isolation and the lack of community, incivility, bias, and 
harassment can all prevent participation.
    At AAAS we're engaged in efforts to address the systemic 
problems that create barriers to success. Among these are 
efforts to address the culture change within STEM such as the 
Societies Consortium on Sexual Harassment in STEM with 100 
society members; making role models more visible as in the AAAS 
IF/THEN and AAAS-Lemelson Invention Ambassadors programs, and 
building community for diversity, equity, and inclusion.
    The most ambitious undertaking, however, is SEA Change. 
Based on a model from higher education in the U.K., SEA Change 
recognizes colleges and universities for work to improve gender 
and race ethnic equity in STEM. Participating institutions 
voluntarily develop a data-driven plan to address issues of 
diversity, equity, and inclusion, aligning their plan with 
specific context of the institutions. Institutional plans are 
developed by rigorous self-assessment and using data to try to 
understand where we have to go forward.
    With funding from the Alfred P. Sloan Foundation, AAAS and 
Education Council are updating resources that assist colleges 
and universities to try to figure out how to do this in ways 
that are also consistent with judicial rulings and the legal 
aspects that may come into question.
    We see much within the STEM Opportunities Act that is 
highly complementary with SEA Change, and we look forward to 
working together to figure out how to make those synergies 
happen. Thank you.
    [The prepared statement of Dr. Malcom follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much.
    Dr. Espinosa.

               TESTIMONY OF DR. LORELLE ESPINOSA,

                  VICE PRESIDENT FOR RESEARCH,

                 AMERICAN COUNCIL ON EDUCATION

    Dr. Espinosa. Chairwoman Johnson, Ranking Member Lucas, and 
Members of the Committee, thank you for the opportunity to 
testify today on this important topic.
    My name is Lorelle Espinosa, and I'm the Vice President for 
Research at the American Council on Education with a 20-year 
professional focus on diversity and inclusion in the STEM 
fields.
    Today, I'm here primarily in my capacity as Co-Chair of the 
National Academies of Sciences, Engineering, and Medicine's 
Committee on Minority Serving Institutions, which recently 
published the report ``Minority-Serving Institutions: America's 
Underutilized Resource for Strengthening the STEM Workforce.'' 
I have submitted a copy of the publication's highlights, along 
with my written testimony.
    The report has many key findings, recommendations, and 
strategies related to strengthening STEM education and research 
at the more than 700 2- and 4-year minority-serving 
institutions, also known as MSIs, across the United States. 
MSIs, of which half are community colleges, enroll nearly 30 
percent of all undergraduates, including a sizable portion of 
the Nation's STEM students, yet are vastly under-resourced and 
in need of critical STEM infrastructure.
    In addition to their reach, it is important to acknowledge 
who MSIs enroll, namely a large proportion of students of 
color, many of whom are low-income and the first in their 
families to attend college. Given this, many MSIs have 
developed, with intentionality, ways to offer a rich set of 
academic and social support systems for students that help them 
thrive academically and prepare for meaningful and sustained 
contributions to the workforce and to our society.
    Of the committee's 10 recommendations to MSI stakeholders, 
specific actions we recommend Congress take include, first, 
incenting greater investments in MSIs and the strategies that 
support their student success as outlined in our report and in 
my written testimony. This includes new and expanded funding 
mechanisms that strengthen STEM infrastructure and encourage 
innovative teaching, learning, and laboratory experiences, as 
well as substantial growth and mutually beneficial public-
private partnerships. Such investment requires significant 
increases in annual appropriations to support capacity 
building, funds for MSIs, and need-based student financial aid, 
including scholarship aid.
    Second, taking strategic actions to enhance the clarity, 
transparency, and accountability for Federal investments in 
STEM education and research at MSIs. It is in the Nation's best 
interest not only to establish new and expand current STEM-
focused investments but also to increase the information 
available about these funds and their impacts to the MSIs 
themselves and to their many stakeholders.
    Third, requiring that federally funded programs include 
proper resources for a rigorous evaluation component in order 
to measure the impact of these investments on student learning 
and career outcomes for STEM graduates at MSIs.
    For improvements in the short term, Congress should require 
all relevant Federal agencies to identify an MSI liaison to 
coordinate activities, track investments, and report progress 
toward increasing MSI participation in STEM research and 
development programs.
    Next, undertake a production of an annual procurement 
forecast of opportunities, including grants, contracts, and 
subcontract opportunities and cooperative and other 
transactional agreements that will enable increased 
participation of MSIs in basic, applied, and advanced STEM 
research and development programs. This report could serve as a 
critical resource for policymakers, government agencies, and 
MSIs themselves to assess and benchmark the impact of national 
investments in high-potential but underserved communities. This 
forecast report may further encourage other stakeholders to 
partner with MSIs in new and innovative ways.
    Next, report on the level of participation of MSIs in prime 
or subrecipient or contractors in STEM-related activities, 
including the type of procurement mechanisms and the current 
investment totals that support STEM research and development.
    Finally, Congress can track proposal submissions by MSIs in 
Federal contracts, grants, cooperative, and other transactional 
agreements and Small Business Innovation Research and 
technology transfer programs.
    In closing, as the Nation continues to grow more diverse, 
the proportion of MSIs in America's higher education system 
will continue to grow. These institutions are a valuable but 
underutilized asset for the Nation, and with greater investment 
and intentional support from Congress, States, and the private 
sector, they can contribute in significant ways to local, 
regional, and national economic development and job creation.
    Thank you for your time and attention and for your 
commitment to diversifying and strengthening our STEM workforce 
in this country, and I look forward to your questions.
    [The prepared statement of Dr. Espinosa follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much.
    Before the next witness, I want to acknowledge the presence 
of Dr. Rush Holt, a former Member of this Committee, who is now 
directing AAAS. Thank you for being here.
    Dr. James Moore.

              TESTIMONY OF DR. JAMES L. MOORE, III,

            VICE PROVOST FOR DIVERSITY AND INCLUSION

                  AND CHIEF DIVERSITY OFFICER,

                   THE OHIO STATE UNIVERSITY

    Dr. Moore. Chairwoman Johnson, Ranking Member Lucas, and 
Members of the Committee, thank you for inviting me to speak 
with your distinguished Committee today. Again, my name is 
James Moore from The Ohio State University.
    It is a considerable honor to be here today, and I would 
like to commend Chairwoman Johnson and Ranking Member Lucas for 
the leadership of the STEM Opportunities Act. I also would be 
remiss if I didn't thank Representatives Anthony Gonzalez and 
Troy Balderson for helping to make my testimony possible. I 
also would like to thank Representative Joyce Beatty from 
Columbus, Ohio, although she is not a Member of the Committee, 
but she is a very active advocate for broadened participation 
in STEM.
    How OSU is addressing the lack of diversity in STEM fields 
is best illustrated through a pair of Ohio students, Shelby 
Newsad and Omari Gaskins. Shelby grew up in Beverly, a village 
of 1,300 in southeastern Ohio, not too far as the crow flies 
from Representative Balderson's district. Like many rural 
districts, Shelby's small high school lacked basic science 
labs, and her only science courses were taught out of old 
fading textbooks.
    While Shelby's intellect earned her a Morrill Scholarship, 
one of Ohio State's premier diversity merit scholarship 
programs, she struggled in her biosciences major. As she headed 
to special tutoring sessions, she questioned whether she would 
ever catch up to her peers.
    Now, Omari also grew up in Ohio but in urban Dayton, a 
once-proud city now battered by opiates and joblessness. 
Inspired by Marvel Comics and Iron Man movies, Omari joined a 
robotics team after he left his neighborhood school for a 
charter high school, smart enough to teach himself how to code 
but without the means to pay for college.
    Omari found a pathway to Ohio State thanks to our flagship 
Young Scholars Program, what we reference as YSP. Now in its 
30th year, YSP finds promising, low-income eighth-grade 
students in some of Ohio's most vulnerable school districts 
across the State. We provide our Young Scholars with ongoing 
academic support during their high school years and later offer 
them strong financial packages to Ohio State, provided that 
they maintain certain academic standards throughout high school 
and college.
    The ongoing support during their precollegiate and 
collegiate years allows students like Omari to pursue STEM 
fields and other academic areas. Currently, 43 percent of our 
Young Scholars are STEM majors. We have approximately over 800 
precollegiate students and over 400 students who are--who have 
matriculated at The Ohio State University.
    Both Shelby and Omari--one white, rural, and female, and 
the other black, urban, and male--teach us valuable lessons 
about diversity in STEM. Lesson one, we need to be innovative 
and inclusive in the way that we identify talent. We are losing 
too many promising students before they ever reach our doors 
simply because of their ZIP Code and the schools that they 
reside--that reside in these communities.
    Lesson two, when we find these students from underserved 
areas, they're often unprepared for college-level STEM 
coursework, requiring valuable human and financial resources to 
bring them up to speed. Sadly, this can cause them to want to 
quit college altogether.
    Higher education partnerships with school districts like 
YSP can help improve STEM education outcomes for students of 
color, especially those who attend high-poverty, under-
resourced school systems.
    Further, early intervention programs can be a major part of 
the solution to the preparation gap. YSP intervenes at the 
eighth grade to ensure that students are prepared for college 
and offers ongoing academic support experiences.
    Major companies are beginning to understand the importance 
and significance of attracting STEM and non-STEM from diverse 
communities. Hence, J.P. Morgan Chase recently made a major 
investment in both our Morrill Scholars Program and Young 
Scholars Program to ensure our students develop the right 
skills and directions to enter the world of work.
    My own academic research has studied key factors impacting 
academic and career development of African-American males in 
STEM fields, and based on this research, we found that family 
influence and encouragement, positive K-12 experiences, their 
own interests and aspirations in STEM, as well as their 
academic experiences in college with their peers, college 
faculty, and staff were all crucial in impacting factors for 
African-American males.
    Thank you.
    [The prepared statement of Dr. Moore follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much.
    Now, Ms. Barbara Whye.

                   TESTIMONY OF BARBARA WHYE,

             CHIEF DIVERSITY AND INCLUSION OFFICER,

            VICE PRESIDENT OF HUMAN RESOURCES, INTEL

    Ms. Whye. Chairwoman Johnson, Ranking Member Lucas, and 
distinguished Members of the Committee, thank you for inviting 
me to be with you this morning. I'd also like to recognize 
Representative Bonamici from Oregon and Representative Biggs 
from Arizona.
    It was a STEM education that rapidly propelled me and my 
seven siblings out of poverty. I am the product of a STEM 
education. I was born in the South to two amazing parents who 
lived through segregation and racism like so many other black 
families. Their options for finishing high school were filled 
with insurmountable obstacles. Neither of my parents finished 
high school, yet they pushed on, they instilled in us the 
importance of an education. All eight of us became STEM 
professionals, scientists, engineers, and executives. I sit 
before you today as an engineer because I had access and role 
models.
    My great-great-grandparents were born enslaved in this 
country in the 1800s. Recently, I visited their tombstones in 
Conway, South Carolina. They had the wherewithal to name my 
great-great-grandfather Favor and his wife was named Pleasant. 
It is the same optimism that is a part of my inherited DNA that 
I believe we as a Nation can bring to this challenge.
    It is imperative that legislation expands opportunities in 
undergraduate STEM education for underserved students receiving 
degrees in STEM education. The STEM Opportunities Act does 
exactly that, and thank you, Madam Chair.
    For the proposed legislation to be successful, our country 
should quickly shift from problem-admiring to problem-solving. 
We have Einsteins all over our Nation who are untapped and who 
have not been given access to an equitable and quality 
education. As a Nation, we must put forth compelling, specific, 
and immediate steps to achieve a different outcome.
    Access to a quality education should be a basic human 
right. With the rate of technology and the increase of STEM 
jobs across this Nation, a STEM-ready student is a workforce-
ready student. However, students all over this country cannot 
tap into the coursework that would put them on the right 
trajectory. Every child should have coding as a school subject 
and experience by third grade. Students are using technology in 
everything they do. They should understand the power and the 
opportunity it provides.
    Intel recognizes the importance of growing pathways. For 
example, we partner with three schools in the Navajo Nation and 
the Oakland Unified School District as a part of our $300-
million diversity-in-tech commitment. Within 2 years, student 
enrollment in computer science classes increased by nearly 400 
percent.
    Being bold and taking specific actions is in the DNA of 
Intel. Through the leadership and commitment of our CEO Bob 
Swan, the executive team, and employees around the world, Intel 
has achieved full representation based on market availability 
in the U.S. workforce a full 2 years ahead of schedule. We have 
the ability within us to solve anything when we take action. We 
know the power of making the impossible possible, and the power 
lies within every single one of us.
    As you consider the legislation this Congress, I would ask 
this Committee to be bold in your actions and be transparent. 
We must strengthen our systems and hold leaders accountable to 
eradicate biases. You can hold programs accountable to ensure 
that students at the most mature stages of the pathway are 
successfully retained and complete their education as those 
earlier in the pathway.
    Ensure that HBCUs (historically black colleges and 
universities), HSIs (Hispanic serving institutions), and the 
tribal colleges have the resources to establish top-tier 
programs in the STEM disciplines. Focus on the creative 
programs and collaborations that emphasize hands-on STEM 
activities that connect technology careers to real 
applications. Authorize more funding to our STEM-based research 
and faculty programs, especially those targeting the 
underserved.
    The STEM Opportunities Act is a good start and a testament 
to this Committee's commitment to developing solutions to 
support underrepresented minorities and women in STEM. Intel 
will remain a committed partner to growing STEM opportunities 
and solutions, and I look forward to continuing the work with 
this Committee. Thank you for your time.
    [The prepared statement of Ms. Whye follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much.
    We will begin our first round of questioning. And I'll 
recognize myself for 5 minutes.
    Despite a lot of attention being focused on the issue of 
increasing the participation of women and underrepresented 
minorities, progress has been very slow and in some cases 
nonexistent. Why has so little progress been made despite the 
amount of resources and attention devoted to these issues and 
our knowledge of proven solutions? And you can start, Dr. 
Jemison, and we can just go down.
    Dr. Jemison. I want to just start off by saying I'm here 
also as the Chair of a committee of the National Academies of 
Sciences, Engineering, and Medicine on how do we improve the 
representation and the leadership of women in STEM fields. And 
the report is due out in November, and I'm going to make sure 
we--everybody gets a copy. But some of the things that we are 
looking at is the fact that there are solutions. We already 
know how to increase things. The issue is how do we get 
individual organizations and institutions to enact them?
    And some of the things we're finding is many times it has 
to do with that perception that there's not enough support at 
the head of institutions. We know that when there is that 
support, things change. At Harvey Mudd College when Maria Klawe 
came in, she was able to triple the number of women graduating 
in computer sciences in 5 years, so it really has to do with 
institutional support at the top and there being some 
repercussions about not effecting change.
    Chairwoman Johnson. Thank you.
    Dr. Malcom. We have invested in a lot of intervention 
programs over the years, and we do have a lot of answers for a 
lot of the barriers that we see. The difficulty I think is that 
we don't put the pieces together. This is one of the reasons 
that we have turned to SEA Change as a more systemic 
institutional transformational strategy. You can't have just 
someone worried about the entering student over there and not 
the graduate student over here. You've got to really look at 
the entirety of the policies, the practices, and the processes 
that are in place that put barriers in the way. And we utilize 
the interventions that appear actually as solutions to a lot of 
these things.
    I think that this notion of having a scaffold for 
institutions to look at all of these elements at the same time 
is really powerful. That is the only way to begin to look at 
these issues possibly at scale.
    Congresswoman Johnson, we were pleased to have you at the 
celebration and have you as the keynote at the celebration for 
SEA Change. Those institutions had gone through a process of 
self-assessment. They had gone through a process of actually 
looking at all of the aspects. They might not have chosen to 
deal with all of them, but they had solutions that had come 
from the earlier investments that have been made around 
intervention programs.
    So I think that we've got to move this to a different 
scale. We can't really up the numbers in a large amount without 
having institutional change. And having them do a lot more of 
the holistic strategies that it's really going to take to make 
a difference. Thank you.
    Chairwoman Johnson. Thank you. Dr. Espinosa.
    Dr. Espinosa. Thank you for the question. The committee 
that I co-chaired would say that we're not investing dollars 
and attention into the institutions that are serving the 
greatest number of students of color and low-income students, 
again, our Nation's minority-serving institutions. These are 
institutions that are under-resourced and don't have, in many 
cases, the critical infrastructure that are needed.
    The best practices that we know--again, as someone just 
mentioned, we know a lot about what works in broadening 
participation. We know that undergraduate research experiences, 
for example, is a huge predictor of success, but we don't equip 
many of the institutions where these students are attending 
with the infrastructure to offer such experiences. So there is 
a great deal of focus in our report on many of these successful 
strategies.
    I'll just also mention that MSIs not only offer these 
experiences when they can, but they do it in a way that is 
culturally aware and in a way that sets high expectations for 
their students no matter where they start.
    Chairwoman Johnson. Thank you. Dr. Moore.
    Dr. Moore. I'll be succinct and try not to say some of the 
same things, but there are four--five things that is really 
important that should be thought about consistently. The first 
one is interest. We know how to get students interested in 
STEM, but it's not as much how do we sustain their interest. 
And as they--from--these are K-to-gray kinds of issues. Even 
the individuals who do obtain a STEM degree, oftentimes they 
opt out of the field because of the experiences that they had 
throughout the educational experience.
    The other one is preparation. Preparation is a major issue 
at the K-12 particularly, and sometimes it even seeps in at the 
graduate and professional level. All AP is not created equally. 
All honors is not created equal. Students matriculate at Ohio 
State and they realize they have classmates who had the same 
textbook, the same biology textbook in high school and that was 
the first time that they have ever been exposed to it. So we 
see malpractice going on throughout our educational 
institutions in America.
    The other one is experiences, making sure that they have 
adequate educational and career experiences that is indicative 
of what it means not only to go into a STEM field, to be a part 
of the new frontier of STEM. If we don't think about the new 
frontier of STEM, we'll just have another disparity even when 
they get in STEM.
    The next one is connections, making sure that they have 
access to mentors that reflect and look like them. You know, 
this is anecdotal. When I was at the National Science 
Foundation and when we would do reviews of other--we would do 
reviews of grants, if the professor was Iranian, it seemed like 
all the students were Iranian. When the professor was Chinese, 
it seems that all the professors were Chinese.
    And increasingly we know that HBCUs, minority-serving 
institutions, are educating a disproportion of underrepresented 
groups, but what is happening when you're not--when most people 
are not paying attention? The professors do not mimic the 
students even at HBCUs like they did many years ago. 
Internally, it's creating--it's not creating the kind of 
relationships that they once had many years ago.
    And last but not least, opportunities. Even when you--at 
every level of the educational journey, students need to have 
opportunities because where they don't have these 
opportunities, they don't necessarily get to reach the level 
that they--to reach their full potential. But if you--you know, 
interests, your preparations, your experiences, and your 
connections impact whether or not you can even access the 
opportunities when they come to you.
    Chairwoman Johnson. Thank you. Ms. Whye?
    Ms. Whye. At Intel we learned that what you measure 
matters, and we learned right away that we can't hire our way 
to success. Thank you--that we can't hire our way to success. 
You actually have to focus on retention. We're one of the few 
companies that's actually monitoring our retention and how our 
women not only starting in engineering and engineering careers 
at Intel but how are we being inclusive in our environment and 
creating a sense of belonging so that we can also retain this 
talent.
    Chairwoman Johnson. Thank you very much. Mr. Lucas stepped 
out. He will return. In the meantime, I will call on Ms. 
Bonamici. I'm sorry, Mr. Brooks.
    Mr. Brooks. Yes, ma'am. We do have Republicans here today.
    I represent the Tennessee Valley of Alabama, home of the 
Marshall Space Flight Center. We like to call ourselves the 
birthplace of America's space program.
    And, Dr. Jemison, I'd be remiss if I didn't mention that, 
to us, you're a hero and a role model having come from the 
Tennessee Valley, Decatur, your birthplace, which is in the 
Tennessee Valley, and we also named a high school after you, 
Jemison High School just a few years ago. So that gives you an 
idea of how highly we think of you and everything you've done 
in your personal life and in your professional career.
    I'd be remiss though if I didn't add that I'm a Trekkie, 
and knocking the ball out of the ballpark was when I found out 
you also were on a role of Star Trek, ``Second Chances,'' so 
that's really cool, OK?
    With that as a little bit of a backdrop, here's a question 
for you if you don't mind. In your testimony you highlight the 
demand for skilled technical workers, STEM jobs that do not 
require a 4-year degree. You also mentioned that women and 
underrepresented minorities are frequently unaware and left out 
of pathways to these careers. What can be done to improve the 
awareness and participation in these programs, and is there a 
role for industry to play?
    Dr. Jemison. Thank you very much for the question. My 
father worked on Redstone Arsenal as a roofer before I was 
born, so he was part of it, too.
    Thank you for the question about skilled technicians and 
skilled labor, which actually do represent the majority of the 
STEM workforce. And in addition to that, they're very high-
paying jobs and women very frequently do not know about them. 
And we also have a workforce shortage in those areas.
    What can we do? We can, first of all, make people aware of 
them by actually having those jobs represented in television 
programs. When we talk about this--right now--we always talk 
about 4-year degrees. I was busily writing notes about that. We 
talk about 4-year degrees. We talk about academia, but the 
workforce that actually built the Shuttle were not 4-year 
degree engineers. They were skilled technicians. So we need to 
make sure that those jobs are represented.
    Then we have to make sure--I believe that community 
colleges have the ability to do vocational work and are not 
seen as a sort of a remedial place for what was not done in 
high school so that people can get into 4-year colleges. 
Actually, community colleges do incredible work with training 
technicians.
    Vocational education in high school could also be a pathway 
for people seeing and understanding what are some of the jobs 
that are available to them.
    And I just want to go back to something that is really 
clear. During World War II, women fulfilled many of the jobs 
that were considered masculine jobs from, you know, the iconic 
image of Rosie the Riveter. They also were the ones who 
transported airplanes around. We need to understand that women 
can do not only the biotechnician jobs, but that they can also 
do the jobs in mechanical, welding, and building aircraft. 
Those things are important. So thank you for that question. But 
we need to get that out front and keep it in our eyesight.
    Mr. Brooks. I've got some facts I want to give. I don't 
know if we're going to have time for a question or not, but 
this is rather troubling to me. And I just did this research 
while I was sitting here. One was a comment by Don Lemon that a 
put a fact then analyzed, and it was out-of-wedlock births. And 
then looking at STEM and degrees and which races are going into 
STEM. And it seems that there's an unusual correlation. Let me 
run through it.
    Asian Americans, they are number one with the lowest number 
of out-of-wedlock births, and this is according to the National 
Center for Education Statistics at 17 percent out-of-wedlock 
births. They are also number one in terms of number of STEM 
degrees at 33 percent of the degrees that are given out to 
Asian Americans. Caucasian Americans were number two in out-of-
wedlock births at 29 percent, and then number two in STEM 
degrees at 18 percent. Hispanic Americans were number three in 
out-of-wedlock births at 53 percent and number three in the 
STEM degrees at 15 percent. Native Americans were number four 
out-of-wedlock births at 66 percent and number four in STEM 
degrees at 14 percent. And then African-Americans were number 
five at 73 percent out-of-wedlock births, and that's what 
caused PolitiFact to look into Don Lemon's statements because 
that's what he said. And number five in STEM degrees.
    I hope that we can somehow or another as a body, Madam 
Chair, also look into this societal issue and see what can be 
done given this rather startling correlation between out-of-
wedlock births and then people who then go thereafter into STEM 
degrees. And my time is expired.
    Chairwoman Johnson. Ms. Bonamici.
    Ms. Bonamici. Thank you very much, Chairwoman Johnson and 
Ranking Member Lucas, and thank you to all of our witnesses.
    We often talk about our global leadership here in the 
United States and that we have a country of innovators. And we 
know that part of that is because of the groundbreaking 
research that we have invested in, but we also know that we 
need to educate the next generation to be innovative, to be 
cutting-edge. I also serve on the Education Committee where 
right now we're talking about affordable college and retention. 
That's why I am back and forth.
    But, Dr. Jemison, you said in your testimony, excellent 
education must be universal. That's all connected to what we're 
talking about here today. But we also know that it's not enough 
just to educate world-class engineers, technologists, and 
scientists. We need critical thinkers who are creative, who can 
come up with new ideas and new ways to solve problems. So I am 
the Co-Chair--Founder and Co-Chair of the STEAM (science, 
technology, engineering, arts, and math) Caucus, will continue 
to advocate for integrating arts and design into traditional 
STEM fields to increase the competitiveness and the diversity 
of our workforce.
    Ms. Whye, I appreciate your reference in your testimony to 
the value of Intel support for STEAM. For students to be 
successful in the modern economy we want to teach them to think 
creatively, and I think I want to point out that in the 
district I'm honored to represent we have about 20,000 Intel 
employees. There's a nationally recognized public STEAM 
elementary school not too far away.
    So we know that historically our science and technology 
workforce has not been inclusive of women and people of color. 
We heard a lot about that from the witnesses about the 
persistent biases and inequities. We know how that's limiting 
us because diverse voices help identify problems to tackle and 
help find new ways to solve them.
    So according to the recent report from the National 
Academies of Science, Engineering, and Medicine, 58 percent of 
individuals in academia experienced sexual harassment. 
Unfortunately, the prevalence of sexual harassment in the 
sciences often undermines career advancement for women in STEM 
fields, and I'm proud to support the Chairwoman's bill to 
direct the Federal science agencies to implement policy changes 
to address sexual harassment. I thank her for her continued 
leadership.
    Dr. Malcom, in your testimony you mentioned the engagement 
of AAAS in the Societies Consortium on Sexual Harassment, and I 
wonder has the consortium developed any new guidance, and what 
can Congress do to make sure that we're not losing the valuable 
scientific contributions from women in STEM because of an 
unsafe working environment?
    Dr. Malcom. Thank you very much for that question. AAAS is 
engaged with the American Geophysical Union, the Association of 
American Medical Colleges, and Education Council in this 100-
member consortium, and we have our colleagues from mathematics 
and from all the other--many of the other fields there within 
this member group.
    We are actually developing draft policies right now so our 
constituent member societies can have options about what they 
do about different issues. It extends all the way from having 
policies that allow us to affect behaviors, for example, in our 
conferences. If someone--if they've demonstrated that the--you 
have a bad actor there, to be able to--how do we manage that in 
a way that we can in fact have a code of conduct for our 
meetings.
    Ms. Bonamici. Right, and I'm going to try to get another 
question in real quickly.
    Dr. Malcom. Oh.
    Ms. Bonamici. Dr. Jemison, you mentioned the ongoing 
National Academies of Science study addressing the barriers for 
advancement. Through my work on the Education and Labor 
Committee, we've made progress on addressing some of those 
barriers, but I'm concerned about our lack of understanding of 
issues regarding the retention of women and people of color. So 
I'm going to ask you and Ms. Whye, we know the cultural changes 
and willingness to confront the implicit and explicit biases in 
the workforce are essential, but what policy changes can 
Congress explore to improve the retention of women in STEM/
STEAM fields?
    Dr. Jemison. So the report coming out in November we are 
very excited about, and has some more concrete ideas, but 
really quickly, part of it is holding people accountable for 
what they do and doing bias training----
    Ms. Bonamici. OK.
    Dr. Jemison [continuing]. And recognition as part of 
perhaps tenure processes, as part of processes for promotion so 
that it is ingrained into the culture.
    Ms. Bonamici. Right. And, Ms. Whye?
    Ms. Whye. So quickly, I think where there is leadership, 
accountability, and transparency of data anywhere you have the 
opportunity to be transparent with your data and also holding 
leadership accountable for the barriers that exist for women is 
where you can support.
    Ms. Bonamici. And you have--you call it a hotline or a warm 
line or something?
    Ms. Whye. A warm line. We actually have a warm line service 
that we implemented inside Intel. It's an innovative service 
that employees that are challenged by being retained inside the 
company can reach out to these case managers and get assistance 
right away so that we can retain them inside of Intel. Over 
20,000 cases, we have over 80 percent save rate of our 
employees.
    Ms. Bonamici. Thank you. My time is expired. I yield back. 
Thank you, Madam Chair.
    Chairwoman Johnson. Thank you very much. Mr. Lucas.
    Mr. Lucas. Thank you, Madam Chair.
    Dr. Moore, we often hear in this Committee about the 
importance of mentorship and applied learning opportunities 
like internships, apprenticeships. And you recommend that 
colleges look to increase the amount of quality faculty-student 
mentorship and research experiences to keep students in STEM. 
Can you please elaborate on your recommendation and provide 
some examples of how programs at the Federal science agencies 
could support those activities?
    Dr. Moore. Thank you for the question. Well, there's a new 
initiative at the National Science Foundation called GRIP 
(Graduate Research Internship Program), and basically that 
initiative is trying to give individuals opportunity to have 
real-time experiences, as we know that having real-time 
experiences is one of those factors--when I say real-time 
experiences, apprenticeships, internships, co-ops. They allow 
individuals to go deeper in their content area, and not only 
that, they begin to explore new opportunities that further 
engage their interest in those kinds of things.
    At Ohio State we have an initiative. It's a Big Ten 
consortium called the Summer Research Opportunities Program, 
and some of the institutions have a focus on STEM. Ours is a 
little bit more broad, but a majority of the participants are 
STEM majors.
    We know academic achievement is highly correlated with a 
relationship that a student has with his or her major 
professor, as well as the number of contact hours. Having 
research experiences is a strong indicator of whether or not 
you'll go to graduate and professional schools. And those kind 
of experiences, too often students foreclose on exploring these 
opportunities because--based on what they think research is, so 
it's very important--we know that when women and other 
underrepresented groups have hands-on experiences, they're more 
likely to stay in those kinds of activities.
    So part of the university enterprise should really be 
thinking about how do we develop an academic experience that 
goes beyond the didactic but it has the experiential pieces. 
And as I indicated in my earlier remarks, we're trying to do 
that with J.P. Morgan Chase as a testbed where they come and 
actually have office hours, and they're going to be engaged 
with our students ongoing so they can develop the skill--the 
workforce skills ongoing.
    And particularly some students, when they come from 
communities where they're the first in their families to go to 
college or they're pioneers, sometimes they don't know the 
importance of participating in these kinds of activities, so we 
need--it's very important that we get diverse faculty so we can 
begin to shatter myths and share realities and be role models, 
but also it's important that we have support systems in place 
in our institutions of higher learning that further support 
students and help them guide them in certain places.
    I'm here--you know, I like to share that at Ohio State 
we've only had seven Rhodes Scholars in our history and, you 
know, three were in the early 1900s, but the last two came out 
of my office, and they came from parents of immigrants. And so 
those things just don't happen. You can be very bright, have 
high aptitude, and still don't perform at an optimal level. So 
it's important that we build these kinds of things in the 
curriculum.
    Mr. Lucas. Absolutely. Dr. Jemison, workforces needs across 
the country for aerospace and technicians are great, including 
Oklahoma, and many good-paying jobs are going unfilled. Women 
are particularly underrepresented in the aerospace field. Could 
you expand for a moment on the barriers to women in aerospace 
and how we should address that?
    Dr. Jemison. Many times it's the perspective that people 
have about who does what jobs, what they've seen visibly 
whether it's in media where they see the professors, that makes 
a difference. When you look at workforce, though, many of the 
jobs that you see in aerospace, they have machinists there, 
people who are riveting stuff, putting things together, and 
these have been jobs that traditionally people don't think of 
women as doing, but yet girls do as well as or actually better 
than boys in math and science all the way through high school, 
and many of these jobs are filled with people coming out of 
high school.
    And then there are apprenticeship jobs. So, we have to 
actively bring in girls out of high school into these 
apprenticeship kinds of programs because that's going to make a 
difference and let them know that, yes, this is a part of what 
you can do. What's really important about that is those jobs 
pay well, and so women who put so much money into their homes, 
into their children, would have even that much more to support 
the future.
    Mr. Lucas. Absolutely. I yield back, Madam Chair.
    Chairwoman Johnson. Mr. Cohen?
    Mr. Cohen. Thank you, Madam Chair.
    Financial aid is real important for folks in diverse 
populations to go to college. In Tennessee we have a lottery 
that's dedicated to higher ed, and part of the lottery is 
merit-based and some of it's need-based. How important is it 
for these scholarship programs--and if you have them in Ohio 
and if you're familiar with them in other States--to be need-
based in addition to merit-based and getting students the 
opportunity to go to college? I don't know who should go first, 
maybe Dr. Moore because you're--I know you're at The Ohio State 
University.
    Dr. Moore. Well, as you all--you know, Ohio State is a 
land-grant university, and staying true to that mission our 
President Michael Drake has made--as a major part of his 
platform is to make college more affordable. In fact, I'm proud 
to say Ohio State is one of the national leaders. And so for 
every Ohio resident, we cover cost for tuition for every--every 
Pell-eligible student at Ohio State, and it just went to our 
regional campuses. And that is a--we've invested over $100 
million into this, but I can say it's still not enough.
    Mr. Cohen. What are the results that you've seen from that? 
Have you seen higher graduation rates?
    Dr. Moore. Oh, yes, our graduation rates are still on a 
vertical trajectory, but not only that, as our institution 
historically we've had attention between land-grant and 
flagship. We're both. And so our average ACT is a 29.2, and 
some alums will say I couldn't even--we became--we were open 
admissions prior to 1987, and so it used to be your birthright 
if you had a high school diploma in Ohio you could go to Ohio 
State, but now it's more difficult to do that.
    But what we found is not only when you have students, they 
all have the capability, but they all don't come in with the 
same kind of supports and traditions in their families. And 
what we've done is we've put a major emphasis in creating 
support structures for our students to ensure that they are 
successful and so they won't--first-generation college students 
oftentimes make unwise academic decisions not because they're 
not smart. It's because they rely on the same people who are 
just like them who had the same amount of knowledge. And what 
we try to do is to reach out to students early and we try to 
coach them ongoing to ensure that they're very successful. But 
the financial piece is critical, but it's not the only piece 
because it only covers tuition.
    Ms. Whye. Yes, let me just chime in here. I think it's 
critically important because for some of the students it 
creates a choice for them studying versus having to work, so 
the scholarships--and you'll see in my written testimony we 
have a project with AISES (American Indian Science and 
Engineering Society), which provide scholarships for our Native 
American students. And in doing so, that scholarship helps them 
in a couple ways. One, they get paid internships at Intel, but 
also because they're having the paid internships, they're not 
having to really choose between studying and also having to 
work, so it's critically important.
    Mr. Cohen. Dr. Malcom, please.
    Dr. Malcom. Let me say that sometimes the amount of money 
that we're talking about is not really a lot. It is not 
necessarily just the cost of tuition. It may be that in fact 
the students need book money but they don't have it at the 
time, in which case they delay getting it--getting their books 
until they could earn the money or whatever it is in order to 
do it. Well, that puts you behind.
    And there's also an increased number of students who are in 
fact employed--working full-time who are also trying to go to 
school, and that's a more difficult row to hoe. I am a Regent 
at Morgan State and I chair the Finance and Facilities 
Committee, so I see the kinds of things that come across 
about--that can really stop students right in their track, for 
lack of $500 for the books or $1,000 to be able to become 
financial. So it's really a very critical thing that needs to 
be looked at across the board.
    Mr. Cohen. Thank you.
    Dr. Espinosa. I might just add to the point that several 
have made. Many institutions are experimenting with having 
emergency funds available. For many low-income students, books, 
and other critical needs for an education can be out of reach 
because they have to spend money on repairing their car because 
that's the only way they can get to school or they have to 
spend money on their family. So having emergency dollars 
available out of the financial aid office is also a really 
effective strategy.
    Mr. Cohen. All right. Have you noticed any----
    Dr. Jemison. May I----
    Mr. Cohen. Yes, Dr. Jemison.
    Dr. Jemison. I just wanted to add one thing. There is this 
romantic notion about working your way through school, and 
people have done that. But the reality is that it is not 
necessarily fair when those students are working and in classes 
with people who do not have to work their way through school. 
And our responsibility as a Nation is to make sure people have 
access and opportunity to develop their talents that we're 
going to need, all of us, in the years to come.
    Mr. Cohen. My time is up, and I thank each of you for your 
testimony. And it's what I--you know, we need to have more 
need-based scholarships and people understanding that if you 
give people a step up, it's really important not only for them 
but for the whole society. Thank you.
    Chairwoman Johnson. Thank you. Mr. Biggs.
    Mr. Biggs. Thank you, Madam Chair. Madam Chair, I 
appreciate you and the Ranking Member for holding this hearing 
today. It's been very insightful. I appreciate all the 
witnesses being here. I've read your testimony and listened to 
your testimony carefully. I appreciate it very much.
    And it's good to see, Ms. Whye, you're here representing 
Intel, which is so important to my community and my 
congressional district, and thank you. And I only want to say 
this with regard to Dr. Moore and The Ohio State University. 
Oddly enough, the largest engineering school in the country is 
right there at Arizona State University, so I just had to get 
that out, no competition from me, though. I just wanted you to 
know that.
    I am grateful that you're here. I always prefer--and most 
people on this Committee have heard me say this before--that 
the States and the private sector rather than the Federal 
Government take the lead on a lot of the issues we're talking 
about, particularly in expanding STEM opportunities. But I'm 
confident that regardless of how we get there, I think all of 
us in this room share the same end goal.
    In order to remain internationally competitive, it is 
critical that an increasing number of American students are 
able to keep up with and actually in my mind ideally outperform 
students from China, Western Europe, and elsewhere in the 
developed and developing world. The data suggest the United 
States has made great strides over the past decade even though 
we have a long way to go, particularly in the postsecondary 
level.
    According to research compiled by the National Center for 
Educational Statistics, graduate enrollments in science and 
engineering grew 15 percent over the past 10 years. 
Additionally, Latino, African-American, and female 
participation in graduate STEM education increased by 122 
percent, 35 percent, and 37 percent, respectively over the same 
period. Certainly, there's more work to be done, particularly 
in K-12 education, but this seems to indicate we may be moving 
in the right direction.
    And going back to this private sector for moment, I think 
so many efforts to encourage STEM and diversity hiring should 
originate in the private sector. And I appreciate Dr. Moore 
mentioning what J.P. Morgan Chase has done to assist Ohio State 
University, but clearly, Intel has been a real leader in this 
area. The statistics speak for themselves. An 8.5 percent 
growth in female workforce and 17.7 percent growth in the 
number of historically underrepresented minorities just between 
2015 and 2018 alone. Those accomplishments are testaments to 
your leadership, Ms. Whye, and also Intel.
    And I also wanted to thank Dr. Jemison for her comment with 
regarding 2-year schools and their ability to turn out very 
accomplished technicians in the STEM field. We use those and we 
see them in my district.
    Boeing has many machine shops around my district filled 
with a diverse portfolio of workers because they've reached out 
and teamed up with community colleges.
    I'm most interested in learning a little bit more about the 
Tech Learning Lab and Intel Futures Skills programs that you 
referenced in your testimony, Ms. Whye, and I'm wondering if 
you could give us a little more insight into your own 
engagement with these programs and share with us why you think 
they've been so successful at encouraging more young people to 
pursue STEM education.
    Ms. Whye. Thank you. And I'm from the University of South 
Carolina, the other USC, and currently working on a Ph.D. 
obviously at Arizona State University, so I got to give it up 
for AZ.
    Just two things. So what's important about both of these 
programs and all of the programs that Intel is currently 
driving, it's really about access and opportunity because in 
every corner of our communities, even like the rural community 
that I grew up in, there's a student there waiting to be 
engaged. And I think far too often we talk about the narrative 
of the students aren't interested when, quite frankly, the 
students are interested. It's on us to bring the STEM and STEAM 
to these students.
    So both the Tech Learning Labs as well as the Intel Future 
Skills, these programs are put in place to do that, to ensure 
that in our communities and to ensure that communities around 
the Nation, that we can give access to these students so that 
they are developing the critical skills that they will need to 
compete in this Nation and to help Intel with its future 
workforce.
    So, specifically, the Tech Learning Lab, you could think of 
it as a really cool bus that's driving through the rural 
communities in your neighborhood, and that bus is equipped with 
all sorts of fun technologies that you can just geek out. 
That's kind of the visualization for that.
    The Intel's Future Skills program is very similar in that 
it gives the students hands-on skills and entrepreneurship 
skills so that they can do hands-on because the research--and 
Dr. Jemison will agree with this--it's easier for our students 
to see it if they can actually touch the technology and do the 
hands-on project. So it's a very easy way to give our students 
access, and I think all of us could play a role in that and do 
more of that.
    Mr. Biggs. Thank you very much. My time is expired.
    Chairwoman Johnson. Thank you very much. Mr. McAdams.
    Mr. McAdams. Thank you, Chairwoman Johnson and Ranking 
Member Lucas, for your leadership on the STEM Opportunities Act 
to build our American workforce and to include more Americans 
in our STEM careers.
    Utah, my home, is also home to several life sciences and 
medical companies, medical device companies, a robust 
technology sector, and an ecology that provides unique 
opportunities for environmental research. When I talk with 
business and university leaders in Utah working in this wide 
range of STEM fields, the top concern that I hear is about 
their ability to recruit the bright students and the workers 
that they need to keep their organizations and not to mention 
our country globally competitive.
    Utah has amazing community partners working to address 
these needs, including our higher education institutions like 
Salt Lake Community College, which has partnered with local 
Title 1 junior high schools to sponsor robotics teams and to 
provide more hands-on STEM learning to students. And businesses 
in Utah's Silicon Slopes area like Adobe, which has engaged 
students from the Ute tribe in workshops designed not only to 
teach tech skills but also encourage their creativity and 
passion for further learning, which I was interested in your 
comments about scholarships to Native Americans.
    We certainly have more work to do in each of our 
communities and in Congress to ensure that all students have 
the opportunity to study STEM and to pursue a career in 
innovative and well-paying STEM fields.
    So my first question is to Ms. Whye, and thank you for your 
testimony. Your testimony notes that retention is a key issue 
for Intel's and other STEM businesses' workforces, and I can 
tell you that I regularly hear the same thing from employers in 
my district. And, you know, certainly we need to do more to 
educate and train that workforce, but once we do get them into 
the workforce, to retain them and keep them in the workforce.
    So I'm interested from your private-sector experience at 
Intel, what programs or practices have helped Intel to create a 
more inclusive workspace for your employees from 
underrepresented backgrounds.
    Ms. Whye. Great, thank you. At its simplest for your 
employees from their point of view, they walk into your 
companies as if they are a bank. Negative transactions result 
in withdrawals from the bank. Positive transactions result in 
deposits. So at Intel what we learn is when our employees are 
at insufficient funds, they call our warm line. And the warm 
line services there is backed by case managers, and employees 
get to ask their questions about their pay, their managers. It 
could be they're ready for the next job assignment. And through 
using this innovative service--and I think all companies should 
have a warm line, all universities should have a warm line. 
And, in fact, the warm line equivalent for me at my university 
was the engineering program office, right? You agree?
    And so what we've learned about retention is really two 
things. Because we've had this warm line in place, over 20,000 
cases now, we now have predictive analytics that can tell us 
what we're doing right and what we're doing wrong. And the two 
top themes from the warm line are employees want to progress 
and they want to have a good connection between them and their 
manager.
    Based on those predictive analytics, what Intel has then 
done is we've retrained all 13,000 of our managers so that they 
have the leadership muscle to ensure that they're creating the 
right inclusive environments for their employees.
    Mr. McAdams. So you started on my second question, which is 
what kind of--type of training do you give to managers? In my 
experience as an employer as county executive before coming to 
Congress and we had 4,000 employees and leadership starts at 
the top, too, right?
    Ms. Whye. Yes, absolutely.
    Mr. McAdams. Create the environment, but what type of 
things do you do----
    Ms. Whye. Yes, so we----
    Mr. McAdams [continuing]. For your managers?
    Ms. Whye. We have an in-house training that's called 
Managing at Intel. One of the modules in that training is how 
to lead as an inclusive leader. It's based on the content of 
Amy Edmondson, creating a psychologically safe environment for 
employees to bring their voices to the table and how you can 
facilitate as a leader and be a coach as a leader as opposed to 
not allowing your employees to be heard. That would be one very 
specific example.
    Mr. McAdams. Thank you. Thank you, Madam Chair. I yield 
back.
    Chairwoman Johnson. Thank you very much. Mr. Baird?
    Mr. Baird. Thank you, Madam Chair, and thank you to all the 
very talented witnesses that we have here today. I appreciate 
it very much.
    My first question goes to Ms. Whye. You know, many of our 
universities have programs designed to promote diversity in 
STEM. Purdue University, for example, has a Division of 
Diversity and Inclusion, and each department has their own 
diversity program as well, including a Women in Science program 
at Purdue's College of Science and the Minority Engineering 
Program in their College of Engineering.
    So my question to you is, you mentioned some of the 
programs that Intel has been able to use to create a more 
diverse STEM workforce. How do some of the things I just 
mentioned above like at Purdue--are you able to work with those 
programs? Are they beneficial to getting people into the STEM 
programs?
    Ms. Whye. Absolutely. So we have strong partnerships with 
several universities, and what I would say about it is it's not 
enough to get the talent in the door at Intel. So we haven't 
had huge obstacles getting the talent into Intel. Our obstacles 
have been more around the retention and inclusion of talent 
once the students, women and underrepresented minorities, enter 
into Intel. So we actually did a study inside of Intel to make 
sure that we could get to the root of what were some of the 
specific challenges in the way of retaining talent at Intel and 
asking our employees who are staying at Intel what's at the 
root of them staying.
    And I think we can all agree on some of those critical 
elements. It's really largely around having an inclusive 
environment where I feel a sense of belonging. That's 
critically important. The second thing is to have a sense of 
community, so inside of Intel we have about 29 employee 
resource groups so that individuals can have a place--a safe 
landing to ask some of their difficult questions. And then I 
think the third thing is just the leadership and the leadership 
accountability, which is what I spoke about in my written 
testimony about how we are training managers to be more 
inclusive.
    Mr. Baird. Thank you. My second question goes to Dr. Moore 
and, you know, since we're getting these university priorities 
corrected, I just wanted you to know, maybe you're not aware 
that Purdue University considers The Ohio State University as 
our eastern campus. I'm watching you recover from that.
    This year, I introduced with my colleague and Chairwoman of 
the Subcommittee on Research and Technology, Ms. Haley Stevens 
the Building Blocks of STEM Act. And this legislation would 
work to ensure that NSF provides research and insight into STEM 
education during early childhood and particularly for girls.
    So my question to you, Dr. Moore, is one of the lessons you 
brought up was that students in the underserved communities are 
often unprepared for college-level STEM work. Do you think 
there is a real gap in the pipeline for our young children's 
STEM education, and if so, what should we do to address that 
gap?
    Dr. Moore. Certainly. You know, ZIP Codes do matter 
currently unfortunately. You know, when I was talking about 
Shelby and Omari, Shelby grew up in Beverly, Ohio, but I didn't 
finish. Even though she had struggles, we kind of supported her 
through our office, and she's now a Ph.D. student at the 
University of Cambridge in the U.K., right? And so, thank 
goodness we have an institution like what we have to support 
students and help them reach their dreams and aspirations. And 
Omari is a constant on the Dean's list, even though--so great 
minds come from every ZIP Code.
    I think first and foremost our society has to believe that. 
And how we can coach, everybody needs coaching. I know 
Congressman Gonzalez, the former NFL star, Buckeye football 
player, and Coach Drexel coached him up no matter how good he 
was. And so I'm saying that that's the philosophy we have is 
that we want students to reach optimal success regardless of 
whether you're a fifth-generation college student or whether 
you're going to be the first-in-your-family college student.
    I think when we talk about we have to change the whole 
ecosystem, and we know when families sometimes may not be able 
to play a part, our schools used to play a part. But now our 
schools are fragile, our communities are fragile, and it's 
making it very difficult. So our land-grants, our public and 
private institutions of higher learning, they are required to 
do even more. But not only that, we can't do it by ourselves 
without industries and community because they play a--it is a 
part of the ecosystem.
    And so some of the students, when you're first, you have 
anxiety about being the first. You're going places that no one 
has ever been before. And sometimes you don't know how to ask 
for help. And it's not because--even when they have a 4.0, 
Shelby was one of the top students in her high school, but you 
come to Ohio State, you're talking about any given day we got 
100,000 people near our campus, and it can be quite 
overwhelming if you don't have the right support. So we're 
working on that not only for students, incoming freshmen, but 
we're even working on it how will we do a better job with our 
transfer students.
    When you go to schools that may not have all the resources, 
the 2-year college route is becoming another--a preferred route 
to get to Ohio State and Purdue and other places. And so our 
institutions of higher learning have to do more.
    But I will say this. I would be remiss, there's no 
federally funded program that's probably been more impactful 
for broadening participation than the Louis Stokes Alliance for 
Minority Participation. What might be an idea how could we 
think about that and expanding it, I have--our grant is $4.5 
million. We have 10 universities, 10 universities trying to 
share $4.5 million. It's very--it's not a lot of money. But 
thinking about how do we leverage what we all do to make an 
even greater impact.
    Mr. Baird. Thank you. I think I'm out of time unless----
    Dr. Jemison. I just want to add, and I don't know if this 
is out of order, but to add something about the question of 
childhood and what happens as we get children through it. We're 
mistaken sometimes when we believe that we have to get students 
interested in science. We come out of the chute excited about 
science. We're picking up the bugs, the snails, the stuff in 
the couch. We're asking what it is. What happens many times is 
children go to school, instead of using this prodigious 
construct for learning that all children have, it's very well-
documented for childhood, we demotivate them. We take the 
energy away by teaching science in a way that just isn't 
science. It's really about hands-on.
    Besides parents, the most impactful part of this is 
teachers. And many teachers in K-8 have not had science as a 
specialty. And so we have to really make sure that we look at 
teacher training. And again, I want to just go to the idea of 
teacher certification, how do we support that so that teachers 
actually are able to do the work that maintains a student 
interest that helps them to build the kind of resilience that 
they need to continue through? If we do that and build science 
literacy, then we will have the pipeline, the resilient 
pipeline that we need to go into skilled labor, 4-year degrees, 
or post-doctorate degrees.
    Mr. Baird. Thank you. I yield back.
    Mrs. Fletcher [presiding]. Thank you. I'll now recognize 
Mr. McNerney for 5 minutes.
    Mr. McNerney. First of all, I want to thank the panel for 
coming today and for your work in this area. It's important.
    STEM programs form a cornerstone of the United States' 
educational system and were created to ensure that the United 
States remains competitive in the global marketplace. However, 
data shows that there is a growing gap in STEM-related 
educational achievements between men and women. While women 
earn over half of college degrees in the United States, they 
hold only 28 percent of STEM-related jobs.
    That's why I plan on introducing the Getting Involved in 
Researching, Learning, and Studying of STEM Act--that's the 
GIRLS STEM Act--which, combined with this bill under discussion 
today, will help address this inequality. My legislation would 
help establish a program in the United States Department of 
Education to provide grants to eligible local education 
agencies to assist elementary and secondary schools in 
encouraging and preparing female students in STEM careers. This 
would ensure that more female students participate in and have 
access to STEM educational opportunities. And you know we're 
leaving out a large block of very qualified, very talented 
people that would help enhance our economy and our national 
security, so it's very important that we do this.
    Dr. Jemison, in your testimony you highlighted several 
barriers to women in STEM. Included in this list is less access 
to mentoring and higher service expectations. With so few women 
in leadership positions, how can we balance the need for these 
women to serve as mentors and role models and to make sure 
their voices are heard without putting too much of a service 
burden on them?
    Dr. Jemison. So the comment that has been made a couple of 
times is how important mentorship is and mentorship being 
people who care about your careers and help you see new 
opportunities. And very frequently mentors who are similar to 
you are most effective, yet it can be very effective where 
others mentor you as well. And so there needs to be some onus 
put on everyone in academia or other professions that they have 
individuals that they're responsible for in terms of making 
sure that they are brought into the system.
    So when I joined NASA, I was the first woman of color to go 
into the astronaut program, and I had a big brother who helped 
me to sort of navigate what was going on, and that made a 
difference. And so I think that part of the way we decrease the 
burden on women of color and women, period, is by making sure 
that everyone has a responsibility. In fact, we could say that 
it is the Department Chair in academia who should have the 
responsibility for making sure that postdocs are coming in, 
that students are coming in, and are actively mentored by 
people who already have tenure, so to shoulder that burden.
    So if you're a woman and you're in an academic institution 
and then you're asked to do all the work around women and 
community and keeping them in, and yet at the same time you're 
having to do all your tenure work as well and you get no credit 
for the community work, and maybe we can also look at how we do 
a credit for community work. There are many type of ways----
    Mr. McNerney. Thank you. I only have 5 minutes, so----
    Dr. Jemison [continuing]. And it's something that we need 
to do.
    Mr. McNerney [continuing]. I'd like to get to another 
question.
    Dr. Jemison. Thank you.
    Mr. McNerney. Dr. Moore, are there policies and practices 
that you have found to be effective in increasing participation 
of women and underrepresented minorities in STEM at Ohio State 
that you believe could be practiced at other institutions?
    Dr. Moore. Many of our academic units have mentoring 
programs specifically for women, but not only that, we try to 
create a community for women where they can draw on and share 
resources, but not only that, what we're finding and right now 
we're in this process of trying to revisit our benefits around 
leave, family leave that--which is a big component that 
sometimes women opt out of the academy particularly at the 
professor level. But also we're thinking about other mechanisms 
in which we can begin to keep people in the profession.
    The other piece in regard to what we know that has been 
very supportive is when you have representation, diverse 
faculty attracts diverse students. When you look at the faculty 
who tend to graduate the most women, they typically are women. 
And I think that's why most of us do it the opposite. We focus 
on the students rather than the faculty, but the faculty is--
plays a critical role in whether or not you get a Ph.D. or a 
graduate degree because they make selections and grants, et 
cetera.
    The advanced grant is the big grant that we--we have an 
ADVANCE program on our campus, and what they constantly do is 
present best practices, exemplary practices that we can use on 
campus. But the new initiative is we have programs specifically 
for the male faculty because sometimes we have implicit biases. 
We communicate differently sometimes that sometimes alienate 
our women colleagues, so we have lots of programs like that on 
campus.
    Mr. McNerney. Thank you. I yield back.
    Mrs. Fletcher. Thank you. I'll now recognize Mr. Gonzalez 
for 5 minutes.
    Mr. Gonzalez. Thank you, Madam Chair. Thank you for holding 
this important hearing.
    The beauty of tech in my opinion or one of the beauties of 
tech is that we know for sure from experience and data suggests 
this, that diverse viewpoints and diverse experiences help us 
build better technology. I ran a technology company, and it was 
clear the more diverse we were--and we did a great job on 
this--the better our products were, the easier it was for us to 
serve our customers. And so I think the fact that this has 
become a national imperative in many senses is fantastic.
    My first question will go to my friend Dr. Moore. There's 
been a lot of crazy talk on who the real OSU is here. I mean, 
would you agree that the real OSU is Ohio State?
    Dr. Moore. Affirmative.
    Mr. Gonzalez. Thank you. Now that we've got that out of the 
way, and frankly I want to commend you. I am so proud of you 
and the university, as I was reading your testimony and 
listening to you today, to know that Ohio State is working so 
hard on this and you're getting it right. I couldn't possibly 
be happier sitting in this chair, so I just want to thank you 
and everybody at the university for the work that you're doing.
    I think the anecdotes that you shared are really powerful 
because we're talking about two totally different backgrounds, 
but ultimately, we're kind of driving toward the same goal. And 
you have different programs, which makes perfect sense.
    I want to read a part of your testimony. You mentioned--
``We found that family influence and encouragement, positive K-
12 academic experiences, their own interests and aspirations in 
STEM, as well as their academic experience in colleges with 
peers were all crucial impacting factors in African-American 
male achievement.'' It strikes me--and I've heard this echoed 
before. It strikes me that the family influence part is maybe 
the hardest at the university level to kind of, I guess, 
encourage. I guess I'd ask the question to you and to anybody, 
how can we do a better job--and not just to the African-
American community but broadly--of making sure that our parents 
and kind of local leaders are promoting STEM as well?
    Dr. Moore. Well, what we do through our Young Scholars 
Program, we recognize not only are you educating the child, 
you're educating the family as well. In the State of Ohio we 
survey all 12th graders across race, gender, urbanicity, et 
cetera, and when you ask what individual has been most 
influential in your educational/career aspirations every year, 
it's families.
    Mr. Gonzalez. Yes.
    Dr. Moore. So families are influencing your child whether 
they went to college or whether they didn't go to college. And 
so it's very important that we recognize the importance of 
families.
    And even when they have a college education, what we do, 
what we're very proud of, we have the only center that focused 
on African-American males in the United States, and I'm here to 
say I'm proudly--when I first started we only had about 130 
African-American males who had a cumulative 3.0 or better. And 
today, we have 692 out of 1,291, nearly 50 percent of our 
African-American males on our campus, athletes or nonathletes, 
have a cumulative 3.0 or better.
    And what we've found is talent--there are certain things 
that play out in our school systems--I'm not trying to be 
sexist or any of that kind of--that plays out for different 
groups just like we hear my colleagues talk about women. But 
minority males have similar experiences that sometimes they--
it's suppressed, and that impacts their educational outcomes.
    Mr. Gonzalez. Yes. Thank you. And then shifting to Dr. 
Malcom, so a 2018 recent report published by National Academy 
of Science, Engineering, and Medicine mentions that 50 percent 
of women faculty and staff at academic institutions report 
having been harassed. We talked about this yesterday. You all 
weren't here but this was a topic of conversation yesterday in 
this hearing. And the simple question I've asked now for the 
fourth time and I think, you know, we're getting close to being 
able to produce something is what--how can we do better? What 
can we possibly do to make sure that we're cutting those 
instances down, and how can we foster an environment that is 
more conducive to women? I mean, we should just eradicate this 
from STEM if we could, right? So I'll open it up to you.
    Dr. Malcom. I think that right now what we're seeing is 
trying to operate on multiple tracks, trying to look at the 
issue of preventing harassment, not just dealing with it once 
it's there.
    Mr. Gonzalez. Right.
    Dr. Malcom. How do we change the culture, that is, within 
institutions with regard to graduate students and postdocs so 
that when they come through the system that they understand 
that this is not a good thing in terms of supporting the 
environment for STEM.
    And the professional societies have stepped up in terms of 
saying that--in terms of our fields that we do not think that 
harassment has any place within our fields. For the disciplines 
themselves to say that this is not to be tolerated is a major 
point of movement, and we are very pleased to see that.
    Mr. Gonzalez. Fantastic. Thank you, everybody, and I yield 
back.
    Mrs. Fletcher. Thank you. I'll now recognize Ms. Hill for 5 
minutes.
    Ms. Hill. Thank you so much, Madam Chair.
    Dr. Moore, the relationship between a faculty advisor and 
his or her students, including graduate students and postdocs, 
is highly imbalanced in terms of power. I'm really proud of the 
number of women who are entering--young women who want to enter 
STEM--the STEM field. This is happening in my district. We're a 
huge aerospace center in my district and biotechnology, and so 
we're seeing more and more young women who want to get into 
that space, but we still have these huge inequities and 
concerns around the balance of power.
    Most STEM faculty manage that imbalance carefully and 
respectfully but abuse also happens with little recourse for 
students. If the student just quits or even if she reports 
through official channels, her entire career may be derailed. 
Minority, female, and first-generation college students are 
especially vulnerable.
    This actually happened to a woman who has worked for me 
before who was in--she was working in a lab at her university, 
and it was pervasive sexual harassment happening from her 
advisor. Many women quit, they left. Finally, they stood up and 
said that this was enough, they got together, they coordinated 
around it. It went through the entire process at the 
university, and at the end of the day, after going through 
everything, the public exposure, et cetera, the man, the 
advisor got 2 days off and that was it.
    So direct sources of funding from fellowships such as the 
NSF Graduate Research Fellowship give graduate students more 
autonomy, but that helps just a tiny fraction of all STEM 
trainees. What discussions are underway about policies to 
better protect trainees and, more importantly, to reduce the 
incidence of abuse of power altogether?
    Dr. Moore. Well, I can tell you what is mandatory. We just 
created newly--we just made the announcement. We just hired 
someone at Ohio State, a new office called the Office of 
Institutional Equity, and it's going to focus on those very 
things that you highlighted. But not only that, it is now, as 
Dr. Malcom was indicating, a major milestone for our 
university. It is mandated, it is a requirement that all 
faculty, all staff, all students have to take mandatory 
training. And that's a major milestone.
    And not only that, people have blind spots, and it's very 
inappropriate, and sometimes people, they've been socialized, 
they've been doing things for a long time, and they carry out 
in places to where it was--it was inappropriate from the get-
go, and it--and they're doing it in public spaces that may 
isolate individuals. So we're hoping that the training and not 
only that this office is going--in this office, the person 
reports directly to the Provost because we wanted to 
communicate to the university community that this is a serious 
affair and we want it to stop.
    Ms. Hill. Dr. Malcom, yes.
    Dr. Malcom. Yes. I want to also indicate that I think our 
agencies now are also stepping up. When at times it has been 
verified that there is a serious, credible allegation, removing 
that person from a PI responsibility from actually interacting 
with the rest of the space, the people in the space, I think 
that seeing that the National Science Foundation and the 
National Institutes of Health are beginning to move on those 
issues is a real step forward because it's sending a very 
different signal than we have had in the past, that in fact if 
you get lots of grants that the behavior might be tolerated 
because of the money impact that it actually has on the 
institution.
    Ms. Hill. Thank you so much. Do any of the rest of you want 
to weigh in? You want to chime in? Sure.
    Dr. Jemison. I was just going to comment from the work that 
we're doing with the National Academies' women's study for 
increasing participation. One of the issues we have to talk 
about is that the power relationship between the faculty 
advisor and the candidate is so strong that it's a place where 
everyone should hold it as an egregious attack on the academia 
when faculty members abuse that position. And in fact the idea 
of holding their funding from the agencies accountable would 
make a really big difference because money does push things 
along. And if the agency said if you have those kinds of 
issues, we're not going to fund you, it would make a big 
difference.
    Ms. Hill. So would you see a student, for example, who 
doesn't feel like they get proper recourse from the university 
or the lab itself having an ability to go to the funding 
source?
    Dr. Jemison. Well, I think that there should be 
transparency and a requirement from the funding sources to say 
what has been going on to show that you have procedures in 
place for other kinds of requirements--government 
requirements--that you are not harassing----
    Dr. Malcom. Other compliance.
    Dr. Jemison. Other compliance--that's the term--that you're 
complying with not harassing students.
    Ms. Hill. Thank you. I know I'm out of time. I yield back. 
Thank you so much.
    Mrs. Fletcher. Thank you. I'll now recognize Mr. Balderson 
for 5 minutes.
    Mr. Balderson. Thank you, Madam Chair. Thank you all for 
being here this morning.
    Dr. Moore, thank you very much. I appreciate your time 
here. It's always good to see constituents.
    And one of the issues that drives the skills gap we are 
seeing is the access to just basic broadband. We talk about 
broadband, but let's talk about basic broadband. As you all are 
certainly aware, if you lack access to the internet in 2019 you 
are at a huge disadvantage in developing marketable skills. Of 
the 24 million Americans that do not have basic broadband 
internet access, 83 percent live in the rural communities. 
Could you each talk about what your organizations are doing to 
ensure rural communities have an equal opportunity to succeed? 
Dr. Moore, if you would start, please.
    Dr. Moore. Well, first of all, thank you for the work that 
you do. And this is a very important topic. It's a part of our 
ethos at Ohio State because we are a land-grant university. And 
many of our extension programs work aggressively to ensure that 
opportunities are available to our rural constituents. In fact, 
all 88 counties in Ohio, they're guaranteed at least one full 
ride in every county in the State of Ohio.
    We provide a lot of outreach, but not only that, another 
example of it is, as you know, that the opiates crisis has 
plagued many of the rural areas in the State of Ohio, and Ohio 
State is providing leadership to address those issues. But we 
know some of it is a lack of opportunities, and that's probably 
one of the biggest gears is to ensure that individuals have 
opportunities in those areas.
    But not only that, with our access and affordability grant, 
it's ensuring that students won't foreclose on trying to come 
to Ohio State because they can't afford it. We're trying to 
make it even more affordable. So we have regional campus, we 
have the Columbus campus, and our regional campuses, they 
also--we just recently started access and affordability. It's a 
lot cheaper on the regional campus, and plus, we have these 
grant opportunities. So we want to make education accessible to 
our students.
    Ms. Whye. Go ahead.
    Dr. Espinosa. Go ahead.
    Ms. Whye. I'll just talk about our Navajo Nation project. 
We have three schools that we're partnering with just north of 
Phoenix, Arizona. We provide culturally sensitive curriculum, 
and we also--what we haven't talked about today a lot is the 
importance of a collective impact arrangement so that industry 
plus academia plus other companies can come together because 
it--not one company can do it alone. So in the case of the 
Navajo Nation, we've partnered with Cisco, who actually helps 
to bring the broadband to those schools that we're partnering 
with because we think that's also important.
    Dr. Espinosa. So just to put a number to it, one in six of 
the Nation's undergraduate students attend rural colleges and 
universities, and I think this is a group that goes under-
discussed and underserved. I like that you brought up the 
partnerships that exist between tribal colleges and 
universities and local business and industry as a way to serve 
those communities, which are often located in rural areas.
    Another thing that we're doing at ACE is trying to shine a 
light on what are called education deserts, so these are places 
where educational access is limited in terms of higher 
education. There may be no options, there may be one or two 
options, and one of the two might be too expensive or out of 
reach for some of these students.
    In addition to broadband, I think we've discussed satellite 
campuses, also the ability for community colleges located in 
these areas to have dorms where students can live. It's not 
common to have dorms at community colleges, but many of these 
deserts have that as their offering, and some of these 
institutions have built residences.
    I'll say one more thing about the power of dual enrollment 
in these areas, and that's another role of community colleges, 
which is to provide dual enrollment for the high schools in the 
region, which allows those students to have a more promising 
path to go to the flagship in that State or a 4-year 
institution.
    Dr. Malcom. We fully recognize the power and the importance 
of technology now and how it can actually provide access that 
wasn't possible before. And it isn't just to rural communities, 
actually to urban ones as well. We have poverty places 
everywhere.
    And I think that in our case in the case of AAAS what we 
have done in the past is always to try to not necessarily 
design for the broadband. We tried to design for the lowest, 
most ubiquitous technology that we can find, and that often 
means that you're doing things on phones because that's what 
people have. And I think that we need to look across the 
spectrum as we are really seeking the opportunities until we 
can get better.
    Mr. Balderson. Thank you all very much. And, Dr. Moore, as 
you and I know, Beverly, Ohio, where the young lady is 
succeeding in getting her Ph.D. is from a very rural area, so I 
yield back my time. Thank you.
    Mrs. Fletcher. Thank you. I'll now recognize Mr. Casten for 
5 minutes.
    Mr. Casten. Thank you, Madam Chair. Thank you to the panel.
    Dr. Jemison, I think we you an apology because with all of 
this talk about OSU and ASU, there has been no recognition of 
the Thayer School of Engineering where I got my graduate degree 
from at Dartmouth College. And I think particularly in this 
panel on inclusion, the historic underrepresentation on today's 
panel is duly noted.
    On a more serious note, I served for about 10 years on the 
Corporate Collaboration Council at Thayer, and we were very 
proud of the fact that it was the first undergraduate 
engineering school in the country to reach gender parity. I 
spent 16 years as the CEO of a clean energy company and was 
fairly proud of the fact that merit doesn't discriminate, we 
didn't either and, for totally selfish reasons, we had a 
diverse workforce. And for totally unwelcome reasons, when you 
treat all people with decency, people who have not been treated 
with decency elsewhere give you more loyalty than you probably 
deserve, and there are greedy reasons to do that, and I would 
hope we would all do that.
    I mention that not out of looking for praise acknowledging 
a limitation, which is that in neither of those institutions 
did the diversity that we had reflect the diversity of the 
country. It reflected the diversity of the applicant pool. And 
you cannot discriminate, and I'm glad you all mentioned 
intentionality in your conversations that we have to get to, 
and I want to start with Dr. Espinosa. In those higher 
education institutions, I had a phenomenally diverse student 
body that I went to school with and later, you know, had some 
kind of a mentorship role with. It was largely diverse in the 
international sense because that reflected the diversity of our 
applicant pool. What do we need to be doing at the primary 
education level to help ensure that the diversity of applicants 
more accurately reflects the diversity of this country?
    Dr. Espinosa. All right. Well, it all starts there, right? 
It all starts where students start their journeys, which is at 
the primary school level. I think there's a lot more that 
higher education can do to reach that far down. Many admissions 
offices, when they are doing outreach--and I know this because 
I'm a former admissions officer myself--really focus at the 
high school level. And by the time students get to high school, 
they're already on an educational path that determines where 
they will go to college and what they will study in college. 
And this is especially true in the STEM disciplines.
    So some of the promising activities that I've seen on 
college campuses include more of a focus on making sure that 
they're providing a pathway maybe not to their institutions, 
certainly to their institution but to higher education overall 
by focusing their activities and their outreach and the work 
that they do with teachers and others that serves students in 
these spaces, that they also focus there, in addition to the 
pool that they get coming out of high school.
    Mr. Casten. Thanks. If I could sort of move up the 
educational chain, Dr. Moore, you made the point earlier about 
sort of hiring people who look like the students and helping 
with retention, which I wholeheartedly support. I'm curious, 
Dr. Jemison, given some of the diversity of institutions you've 
been involved with, are there any that strike you as being 
really sort of exceptional best practices from the higher 
education level at both reaching down to attract people and 
then making sure that we retain them?
    Dr. Jemison. So let me just sort of say that one of the 
issues is exposure. Having students exposed to the range of 
activities, the range of things that are included in STEM 
disciplines. I want to comment on Dartmouth and Thayer School 
of Engineering not only reaching parity in the number of women 
engineers but actually I think one year actually more women 
graduated. And part of that was the kind of education that's 
given at the school, which has a liberal arts requirement for 
the engineers, and they also have a lot of projects, which 
really work with people seeing the application.
    But I believe it's exposure. I cannot tell you of a 
university that necessarily does things best. I can go back and 
say that when universities allow students to come in on their 
campuses and grade school, when they're in their early high 
school years, it makes a difference. When programs are held 
that purposely include students, it makes a difference.
    But the one program I want to mention was something called 
the Junior Engineering Technical Society, where they would 
bring in junior high school students to the University of 
Illinois at Champaign-Urbana and expose them to engineering for 
2 weeks. It makes a really big difference because all of a 
sudden you know that these careers exist.
    Mr. Casten. Thanks. With a little bit of time, Ms. Whye, if 
you could just quickly chime in then from the employer side, 
the applicant pool, you know, if you aren't with--intent looks 
a lot like those of us on this panel and--unfortunately. And 
there are things that Intel can do as a large company, and yet 
so many of our companies are small employers. What's your 
advice to small employers who may not have the size of your 
H.R. department to reach out with intent?
    Ms. Whye. Yes. So there's a saying that likes likes likes 
and likes also tend to hire likes. So one of the easiest things 
to do would be to develop an inclusive hiring methodology. And 
we have this inside of Intel, and what it looks like is the 
applicant pool is diverse and inclusive. The interviewers on 
the other side are also diverse and inclusive, and inside Intel 
you also have to post a formalized req. We find far too often 
that jobs are secured through the network or through tapping, 
so where you can formalize the structure, be inclusive in your 
hiring pool, to your great point, and also have diverse 
interviewers that's reflective of that pool on the other side, 
that action in and of itself has increased our ability to get a 
more diverse talent.
    Mr. Casten. Thank you. I yield back my time.
    Mrs. Fletcher. Thank you. I'll now recognize Mr. Waltz for 
5 minutes.
    Mr. Waltz. Thank you so much for being here today. This is 
a critical issue to me. This is a critical issue for my 
district and I think for the national security of this country.
    I represent the 6th District of Florida, north Florida, and 
spent our Easter work period visiting Daytona Beach State 
College where they have a vocational and STEM training program, 
also Pine Ridge High School, where we had a skills forum, but 
then Cookman, which is a historically black college that 
received university status in 2007 located in Daytona Beach, 
and of course Embry-Riddle Aeronautical University.
    I appreciate everyone's thoughts today at how to get at 
this and how to do this better. I just want to emphasize--
again, I'm also on the Armed Services Committee. We are dealing 
with a situation abroad where we need to combat extremism both 
abroad and at home but also our near-peer and our peer 
competitors in China and Russia, and STEM is critical to both.
    And I have said and will continue to say that when we look 
at the extremism problem, where women thrive in countries 
abroad and in communities here where they are thriving in civil 
society, where they're thriving in politics, where they're 
thriving in business, extremism doesn't. It's squashed. So we 
just need to get this out of the domestic, I think, forum and 
get us squarely as a national security issue. I want to know if 
you all agree with me there, number one.
    And then, number two is we're looking at the 21st century 
space race, which is near and dear to what we're dealing with 
in the Florida and also in the Armed Services Committee. We 
don't have a workforce and we're not creating a workforce to 
compete, and that is alarming. We're going from half-a-trillion 
dollars in our space economy to $2.7 trillion. That will be 
dependent on space. The average person touches space dozens of 
times a day and doesn't even realize it, whether it's banking, 
markets, navigation, you name it.
    So question one for you. The Administration issued a report 
charting the course for success, America's strategy for STEM 
education. I don't know if you've had a chance to see that 
December 2018. If you have had a chance to see it, I'd love to 
know, Dr. Malcom, I see you nodding your head yes. What do you 
agree with, what do you think could be improved, what are your 
thoughts on the strategy the Administration just put out?
    Dr. Malcom. There are two major points to the strategy. One 
is the focus on workforce, and the other is the focus on 
diversity. And I would absolutely agree with both of them. I 
think that the major issue is, though, how do we get there. And 
I think pulling the pieces together across our agencies is 
necessary, but it's not sufficient. The STEM workforce is a 
national workforce, and yet we basically don't think nationally 
when we do this.
    In Ohio, they look at The Ohio State University, but they 
also look at Ohio University and Akron and Toledo and all the 
community colleges that--to fill in that space. And I think 
that this notion about how do these pieces come together is the 
reason that I have basically focused on a strategy to try to 
operate at scale because we can't do this just one piece at a 
time. And I do hope that we will start to focus in on how that 
piece actually overlays with these larger issues of pulling the 
rest of the pieces together.
    Mr. Waltz. Do you think the report does a sufficient job at 
describing programmatically how the Federal Government can help 
and assist States get at this issue, or do you think it's 
lacking, or where----
    Dr. Malcom. I think that----
    Mr. Waltz. I think--where----
    Dr. Malcom [continuing]. It's not enough.
    Mr. Waltz. Federally, what can we do from this position? I 
understand the States have a huge role, universities, academia, 
local, and personally, I think that's where education decisions 
should be made. But what can we do to support specifically just 
in the time that I have--or reinforce that we're already doing?
    Dr. Malcom. Well, I think that a lot of the programs that 
are already in place are--actually need to be kind of revisited 
in terms of how they help the institutions put the pieces 
together, but I also think that the business community has a 
major role to play----
    Mr. Waltz. Completely agree.
    Dr. Malcom [continuing]. As a partner in all of this and 
try to put these strategies together in a way that is really 
coherent. And some of that is I think part of the intention 
around INCLUDES (Inclusion across the Nation of Communities of 
Learners of Underrepresented Discoverers in Engineering and 
Science) from the National Science Foundation, but again, it is 
necessary but it is not sufficient.
    Mr. Waltz. I think we're doing a great job here of 
describing the problem. I would love any follow up you could 
send to my office on specific solutions that you've seen that 
are effective or ones that we're currently frankly throwing 
resources at that are ineffective.
    Dr. Malcom. I----
    Mr. Waltz. I certainly welcome that.
    Dr. Malcom. I look forward to it.
    Ms. Whye. So just one specific idea, and it's in my written 
testimony and maybe outside the scope of this Committee, but 
one low-hanging fruit I believe is encouraging the Defense 
Department to leverage its ROTC (Reserve Officers' Training 
Corps) program to help build a stronger diverse workforce and 
tapping into that talent pool. So, for example, the Junior ROTC 
that serves about 500,000 students, secondary students, most 
often they're very diverse and underrepresented minority 
students. By being able to go to that talent pool and bringing 
STEM and IoT, Internet of Things or cybersecurity as a 
curriculum to those students I think is a very low-hanging 
fruit item.
    Mr. Waltz. I think it's a fantastic idea, and thank you for 
that. I yield my time.
    Mrs. Fletcher. Thank you.
    Mr. Waltz. I am over time. Thank you. I appreciate the 
Chairwoman's indulgence.
    Mrs. Fletcher. I'll now recognize Mr. Lamb for 5 minutes.
    Mr. Lamb. Thank you. And I'll actually be happy to pick up 
right where you left off, ma'am, because I was just at a JROTC 
graduation on Saturday night in my district. I love those 
programs, and it's nowhere near as large or widespread as it 
should be. And really what I've seen in my short time in office 
is sometimes it's actually more privileged and well-off schools 
that are hosting these programs because of the resources that 
they have, and so they're doing excellent work, but we need to 
see it spread to the places that really need it the most.
    So I don't know if you had anything else you wanted to say 
about your experience with JROTC, but what I've seen 
especially--and as a Marine, I hate admitting this, but the Air 
Force programs that I've seen are awesome because they really 
focus on the aerospace science at an early age, you know what I 
mean, and Marines don't worry as much about complicated science 
I guess. But go ahead.
    Ms. Whye. No, what I would just say there is back to Dr. 
Malcom's point about scale, and so I think what we have to do 
is we have to look at where we have existing infrastructure 
already ready there and in place for us to tap into. So for all 
of us in high school, there were clubs that we were all a part 
of, science club, math clubs, taking the curriculum that we 
know is important for these students to get these critical 
skills and moving those critical skills into those clubs until 
we can get those critical skills into the curriculum of K-12.
    I mean, if we wanted to get it right, we could start by 
changing the curriculum in K-12. But absence of that, until we 
can catch up, we could insert that into these places like 
Junior ROTC, the math club, the science club.
    And the students will tell you this, my experience working 
with Intel and our science fair, they know that more money is 
going to the athletic clubs in comparison to their science 
clubs, so I think the more we can work from that and work on 
that is also very helpful.
    Mr. Lamb. Thank you. Dr. Jemison, I see you want to jump 
in. I wanted to ask a related question anyway. Before I do 
that, I also want to say another existing institution that I 
think we forget about sometimes in these discussions is the 
role of labor unions, which has been an enormous force for 
progress on behalf of people of color for a very long time. And 
many of these jobs are STEM jobs, you know, electricians, 
steelworkers, sheet metal workers.
    So I know you focused a little bit, Dr. Jemison, on the 
role of apprenticeships and opportunities short of a 4-year 
degree. Have you seen what I'm talking about with the role of 
especially some of our more hands-on labor unions and 
apprentice programs in the building trades?
    Dr. Jemison. So I wanted to follow up particularly around 
the military and its capacity to actually train individuals who 
are skilled technicians and part of the skilled labor force. In 
fact, so many of the jobs in the military, whether you talk 
about in the Air Force or I know Navy Staff Sergeants, too----
    Mr. Lamb. Just rubbing it in, yes.
    Dr. Jemison. But also----
    Mr. Lamb. All the other----
    Dr. Jemison. But if people knew, women knew, girls knew, 
coming out of high school about the opportunities that are 
available in the military to be trained in some of these kinds 
of professions, it would make a big difference in the fact that 
those professions actually make more money than some of the 
ones that they're geared to. And so if the military actively 
recruited women into those jobs, it would make a difference and 
also help them to develop a pathway.
    In terms of labor unions, and labor unions have been 
fantastic in some cases. In some cases, because of the 
apprenticeship program, they have been a hindrance as well 
because this is, again, one of those things where--what did you 
use, the term like and like, right?
    Ms. Whye. Yes, like and like.
    Dr. Jemison. And so we have to have the conversation with 
labor unions as well so that they start to broaden their focus 
and their view.
    Mr. Lamb. Thank you. Last question also for you, Dr. 
Jemison, just because of your background, we found out when the 
White House submitted its budget this year that they thought we 
should cancel out the funding for NASA's Space Grants program, 
which is a relatively small part of the overall NASA budget, 
extremely small actually, and what it does is provide grants 
throughout the educational system to encourage people but 
especially underrepresented minorities, women, people of color 
to go in to train them to become astronauts or to study 
aerospace.
    And we actually had a great example of this in my home 
State of Pennsylvania where a recipient of a Space Grant 
program award eventually became an astronaut just a couple of 
years ago, I think maybe the first female astronaut from 
Pennsylvania, a Penn State graduate. And so it just seemed to 
me like a very successful program that was working at an 
extremely low cost, and I was surprised that the Administration 
advocated that.
    Are you familiar with this program at all or have you met 
people who have benefited from it?
    Dr. Jemison. I'm not very familiar with it. I have met 
people who have been involved with programs. But what I wanted 
to add onto that is there has been this push recently for the 
executive branch to pull funding for science education away 
from agencies, so it was going to be solidified under the 
Department of Education, and yet the Department of Energy, 
NASA, they all have very fundamentally important and powerful 
science education programs that have done wonderful work over 
the years. They cannot be replicated under the Department of 
Education.
    So one of the things I think it's vital for us to do is to 
understand that these organizations offer something that the 
Department of Education can't, and removing the small, as you 
said, amounts of money from those organizations is not going to 
benefit the country at large. In fact, it's going to hurt.
    Mr. Lamb. Thank you. Madam Chairwoman, I yield back.
    Mrs. Fletcher. Thank you. And now, I will recognize myself 
for 5 minutes to ask a few follow-up questions.
    I really want to thank all of the panelists for being here. 
I think this has been one of the most informative and engaged 
panels, which is also why I let some of the answers run over 
because we really get to the interesting stuff when we hear 
from you and about your ideas.
    For me as the aunt of a niece in high school who wants to 
become an engineer for--as a Representative from Houston whose 
second piece of office art in my office here on the Hill is the 
Women of NASA LEGO series that came at the same time as the 
Whataburger table tent from Texas, two critical items of office 
decor.
    I am so pleased to have this group here and to hear from 
all of you. And I represent the energy capital of the world, 
and this is something I hear from companies across my district 
and employers across my district, that there is a real need for 
people in STEM fields and that we need to be bringing our 
students along, that we need to have an emphasis on basic 
science and very advanced science, and that's what we do in my 
district. So I've been really interested to hear all of your 
ideas.
    And, Ms. Whye, you talked a little bit about partnerships. 
I wrote lots of notes about these important words, 
partnerships. Dr. Moore, you talked about the ecosystem and, 
Dr. Jemison, you talked about teachers and mentors. Dr. Malcom, 
when you were talking about the agencies, Dr. Espinosa, all the 
ideas of these interesting ways we all need to work together, 
and I think that that's a critical theme.
    So knowing that we just have a few more minutes I was 
actually going to ask about the ROTC idea because that is such 
a great idea, and so I want to make sure that there's nothing 
that you all had in your written testimony that we haven't 
covered today that you would recommend as best practices or 
policies that we should hear and keep in this record of our 
hearing, any ideas of things that you didn't get to touch on in 
the questions already that you would recommend, especially for 
my district from companies to be able to broaden STEM 
participation. That continues to be a critical, critical issue. 
But anything else that anyone wants to add in terms of 
partnership ideas or final thoughts, I welcome those.
    Dr. Jemison. I just want to make a comment about public-
private partnerships. I've worked with Bayer Corporation for 
over a decade on their Making Science Make Sense program, which 
is about science literacy. And they have created curriculum-
changing programs like ASSET, but also programs that look at 
skilled education like the Bay Area Biotech Partners, which 
started with at-risk students in Berkeley, and these students 
graduated as certified biotechnicians. At-risk meaning that 
they were not expected to graduate. But these are the things 
that can happen with public-private partnerships.
    And, as Ms. Whye said, it wasn't just about Bayer. It then 
started to encompass all of the biotech companies in the Bay 
Area. So there is a rich capacity of companies to participate 
across the spectrum from K-12 all the way into college and 
postdoc.
    Mrs. Fletcher. Thank you.
    Ms. Whye. I'll just call out one more and kind of staying 
with the collective impact arrangement because I think it's 
important for--in the private partnerships and also in the 
industry, the academia partnerships. It's also important for 
those partnerships to align toward a very specific outcome and 
also put in the diligence to have an owner, whether it's one of 
the companies, or if it's a third-party organization that is 
responsible for helping those partnerships come together and 
align around a very specific set of measurements and making 
sure that they're meeting on a cadence that they can go back 
and track those measurements to make sure they're getting that 
work done.
    One such partnership that we have right now is called the 
Reboot Representation. This is kicked off by Melinda Gates and 
her organization called Pivotal Ventures. In that is multiple 
companies, but we're all working toward doubling the number of 
women of color in computer science degrees by 2025.
    Now, each of us may do different parts and bring in 
different dollars, but the machine is going toward the same 
destination. And I think sometimes in the partnerships, the 
partnerships are going in different directions, so we need to 
partner with a specific outcome on the other side. And in that 
partnership, by pooling all the resources together, you can 
then choose the right proposals that can push you toward the 
right outcome.
    Mrs. Fletcher. Thank you. Anybody else?
    Dr. Espinosa. I would just add in terms of partnerships, we 
have a very extensive discussion of public-private partnerships 
in the report that I talked about today. We also talk about 
incenting institutions to partner with one another, and that's 
really important when it comes to graduate education. And the 
reason we did this work on minority-serving institutions is 
because that's where the students of color are.
    So if we want to see more students of color in these 
graduate programs that we've touched on today, we need to 
create a pathway, and many institutions are doing this already, 
but really incentivize the pathway to the doctorate coming out 
of not only the 4-year minority-serving institutions but 
starting with community colleges, which is really where the 
majority of students of color enroll. So it's also the 
connectivity across the institutions where they can further 
learn from one another in undertaking this effort, so that 
would mean creating consortiums and collaborations so that that 
learning is taking place.
    Mrs. Fletcher. Thank you very much. I see that I've gone 
over my allotted time, so before we bring the hearing to a 
close, I want to thank you all again for testifying before the 
Committee today.
    The record will remain open for 2 weeks for additional 
statements from Members and for any additional questions that 
the Committee may ask of all of you as the witnesses.
    You are now excused, and the hearing is now adjourned. 
Thank you.
    [Whereupon, at 12:19 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
